APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Eleventh Circuit
(October 28, 2019) . . . . . . . . . . . . . App. 1
Appendix B Order in the United States Court of
Appeals for the Eleventh Circuit
(January 10, 2018) . . . . . . . . . . . App. 28
Appendix C Final Order of Dismissal in the United
States District Court, Southern
District of Florida
(August 25, 2017) . . . . . . . . . . . . App. 30
Appendix D Order in the United States District
Court, Southern District of Florida
(August 30, 2016) . . . . . . . . . . . . App. 56
Appendix E The Charter & The Bylaws of the
Democratic Party of the United States,
as amended by The Democratic
National Committee
(August 28, 2015) . . . . . . . . . . . . App. 66
Appendix F Motion to Amend Complaint Pursuant
to 28 U.S.C. § 1653 . . . . . . . . . . App. 120
Exhibit A:
Third
Amended
Complaint . . . . . . . . . . . . . . App. 123
Exhibit 1: Democratic National
Committee Memorandum,
dated May 26, 2015 . . . . App. 149

App. 1

APPENDIX A
[PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 17-14194
D.C. Docket No. 0:16-cv-61511-WJZ
[Filed October 28, 2019]
__________________________________________
CAROL WILDING, STANLEY RIFKEN,
)
SHARON CRAWFORD, WILLIAM SCOTT )
FRANZ, DAVID PULASKI, MARY
)
JASMINE WELCH, JOSE ALBERTO
)
GONZALEZ, JANE ELLEN PLATTNER,
)
KIM MARIE HOULE, et al.,
)
Plaintiffs - Appellants,
)
)
versus
)
)
DNC SERVICES CORPORATION,
)
DEBORAH WASSERMAN SCHULTZ,
)
Defendants - Appellees.
)
_________________________________________ )
Appeal from the United States District Court
for the Southern District of Florida
(October 28, 2019)
Before JORDAN, GRANT and HULL, Circuit Judges.

App. 2
JORDAN, Circuit Judge:
In his classic treatise on the United States and its
political system, Alexis de Tocqueville famously
remarked that “[t]here is almost no political question
in the United States that is not resolved sooner or later
into a judicial question.” Alexis de Tocqueville,
Democracy in America, Vol. I, at 257 (U. Chicago Press
2000) [1835]. This case, which pits a political party
against some of its supporters, confirms de
Tocqueville’s reputation as an astute observer of
American life.
The plaintiffs in this putative class action are
donors to the Democratic National Committee, donors
to the 2016 presidential campaign of Senator Bernie
Sanders, and voters affiliated with the Democratic
Party in various states. The defendants are the DNC
and its former chairwoman (and current U.S.
Representative) Deborah Wasserman Schultz. The
plaintiffs essentially allege that during the 2016
Democratic presidential primaries the DNC and Ms.
Wasserman Schultz improperly tipped the scales in
favor of former Secretary of State Hillary Clinton, who
was challenging Senator Sanders for the Democratic
presidential nomination.
In their complaint against the DNC and Ms.
Wasserman Schultz, the plaintiffs asserted a number
of common-law and statutory claims, including fraud,
negligent misrepresentation, and unjust enrichment.
The district court dismissed all of their claims for lack
of Article III standing, see Wilding v. DNC Services
Corp., 2017 WL 6345492 (S.D. Fla. 2017), and the
plaintiffs appealed.

App. 3
I
We set out the facts as alleged in the operative
complaint, and accept them as true for purposes of our
discussion. See Wood v. Moss, 572 U.S. 744, 755 n.5
(2014).
A
The Democratic Party charter states that its chair
“shall exercise impartiality and evenhandedness as
between the Presidential candidates and campaigns,”
and is “responsible for ensuring” that the DNC’s
national officers and staff also “maintain impartiality
and evenhandedness during the Democratic Party
Presidential nominating process.” First Amended
Complaint at ¶ 159.
From September of 2015 through May of 2016, Ms.
Wasserman Schultz and Holly Shulman, the DNC’s
spokesperson, made public statements promising that
the DNC would conduct a neutral and impartial
primary process. First, on September 3, 2015, Ms.
Wasserman Schultz was quoted in a Politico article as
saying that she was committed to running a “neutral
primary process.” Second, in Daily Beast and Daily
Mail Online articles appearing in September and
October of 2015, Ms. Shulman was quoted as saying
that the DNC “runs an impartial primary process[.]”
Third, in May of 2016, Ms. Wasserman Schultz told
CNN and the Associated Press that she and the DNC
remained neutral in the primary process. See id. at
¶ 160(a)–(d).

App. 4
B
These statements of impartiality, according to the
complaint, were false. The DNC was allegedly “biased
in favor of one candidate—[Secretary] Clinton [ ]—from
the beginning and throughout the process. The DNC
devoted its considerable resources to supporting
[Secretary] Clinton above any of the other Democratic
candidates.” Id. at ¶ 161. And “[t]hrough its public
claims of being neutral and impartial, the DNC actively
concealed its bias from its own donors as well as donors
to the campaigns of [Secretary] Clinton’s rivals,
including [Senator] Sanders[.]” Id.
In June of 2016, someone using the name “Guccifer
2.0” published a number of DNC documents on a
publicly accessible website. See id. at ¶ 165. The DNC
claimed that those documents had been obtained by
Russian government hackers who had penetrated its
computer network. See id. at ¶¶ 163–64. Among the
documents was a two-page memorandum (marked
“confidential” and dated May 26, 2015) written to the
DNC regarding the 2016 Republican presidential
candidates. See id. at ¶ 166. This memorandum stated
that the DNC’s goals in the coming months were to
“frame the Republican field and the eventual nominee
early and to provide a contrast between the GOP field
and HRC [Secretary Clinton].” Id. at ¶¶ 166–67. The
memorandum also suggested a strategy to “muddy the
waters around ethics, transparency, and campaign
finance attacks on [Senator Clinton].” Id. at ¶ 167. At
the time this memorandum was purportedly written,
the field for the Democratic presidential nomination
included Secretary Clinton and Senator Sanders (who

App. 5
had announced his candidacy in April of 2015), and
there was “widespread speculation” that a number of
others (e.g., Senator Elizabeth Warren) would soon
enter the race. Id. at ¶ 168.
This memorandum, the plaintiffs claim, was not the
only document showing the DNC’s favoritism towards
Secretary Clinton. Other documents obtained by
hackers included research apparently prepared by
DNC staff and Secretary Clinton’s campaign staff
relating to Secretary Clinton’s vulnerabilities, potential
attacks, and policy positions, as well as “opposition
research on the other Democratic candidates.” Id. at
¶ 170. In sum, the complaint alleges that, “in spite of”
the Democratic Party’s charter and multiple public
statements, the “DNC devoted its resources to
propelling [Secretary] Clinton’s candidacy ahead of all
of her rivals, even if it meant working directly against
the interests of Democratic Party members, including
[Senator] Sanders’ supporters.” Id. at ¶ 171.
C
A number of the named plaintiffs made donations to
the DNC in 2015 and 2016. Some of these plaintiffs
donated money after at least some of the statements of
impartiality made by Ms. Wasserman Schultz and Ms.
Shulman and before the hacked documents were
published in June of 2016. For example, Emma Young
made donations to the DNC in December of 2015 and
January of 2016, and Phyllis Criddle made donations
to the DNC in May of 2016. See id. at ¶¶ 105, 109. All
of the plaintiffs who donated money to the DNC or the
Sanders campaign expressly alleged that they relied on

App. 6
the defendants’ false statements and omissions “to
their injury.” Id. at ¶¶ 188, 195.
Senator Sanders endorsed Secretary Clinton as the
Democratic Party’s presidential nominee on July 12,
2016. This allegation is not in the complaint, but we
take judicial notice of this undisputed historical and
political fact under Federal Rule of Evidence 201(b)
(providing that a court “may judicially notice a fact that
is not subject to reasonable debate”). See Shahar v.
Bowers, 120 F.3d 211, 214 (11th Cir. 1997) (en banc)
(explaining that a court can judicially notice “matters
of political history, such as who was president in
1958”).
D
The plaintiffs filed suit against the DNC and Ms.
Wasserman Schultz, invoking jurisdiction under the
Class Action Fairness Act, 28 U.S.C. § 1332(d). They
asserted six state-law claims on behalf of three
proposed classes: donors to the DNC (the DNC donor
class); donors to the Sanders campaign (the Sanders
donor class); and voters who registered as Democrats
(the Democratic voter class). Both of the proposed
donor classes alleged fraud (Count I), negligent
misrepresentation (Count II), and violations of the
District of Columbia Consumer Protection Procedures
Act (CPPA), D.C. Code § 28-3904, which prohibits
various unfair or deceptive trade practices (Count III).
The proposed DNC donor class also alleged unjust
enrichment (Count IV) and negligence (Count VI), the
latter based on the DNC’s alleged failure to provide
donors with a secure computer system and network for
the storing of their personal and financial information.

App. 7
And the proposed voter class separately alleged breach
of fiduciary duty (Count V). The plaintiffs sought
various forms of relief, including compensatory and
punitive damages, attorney’s fees and costs, and a
judgment declaring illegal and enjoining the
defendants’ alleged violations of the Democratic Party
charter.
The DNC and Ms. Wasserman Schultz moved to
dismiss the claims, arguing both that the plaintiffs
lacked Article III standing and that they failed to state
claims for relief. See Fed. R. Civ. P. 12(b)(1) & (6). The
district court dismissed all six claims. It concluded that
the plaintiffs had not satisfied the injury-in-fact
element of Article III standing as to their negligence
claim, the causation element as to their fraud,
negligent misrepresentation, CPPA, and unjust
enrichment claims, and the redressability element as
to their fiduciary duty claim.1
II
We begin with the claims of the DNC donor class
and the Sanders donor class for fraud, negligent
misrepresentation, violations of the CPPA, and unjust
enrichment. All of these claims are based on the theory
that the plaintiffs in these classes were harmed
financially by the allegedly false statements concerning

1

The plaintiffs do not challenge the district court’s dismissal of
their negligence claim for lack of Article III standing. That claim
is therefore abandoned, and we do not express any views on it. See
Access Now, Inc. v. Southwest Airlines Co., 385 F.3d 1324, 1330
(11th Cir. 2004).

App. 8
the DNC’s impartiality and neutrality in the
Democratic primary process. We first address standing.
A
Our review of the district court’s rulings on
standing is plenary. See Simpson v. Sanderson Farms,
Inc., 744 F.3d 702, 705 (11th Cir. 2014); Bochese v.
Town of Ponce Inlet, 405 F.3d 964, 975 (11th Cir. 2005).
As explained below, we conclude that some of the
named plaintiffs representing the DNC donor class
have adequately alleged standing, but that no named
plaintiffs representing the Sanders donor class have
done so.
Article III of the Constitution limits the jurisdiction
of federal courts to “cases” and “controversies,” and
“[s]tanding to sue is a doctrine rooted in the traditional
understanding of a case or controversy.” Spokeo, Inc. v.
Robins, 136 S. Ct. 1540, 1547 (2016) (quotation marks
omitted). To have standing, plaintiffs must therefore
establish that they “(1) suffered an injury in fact,
(2) that is fairly traceable to the challenged conduct of
the defendant, and (3) that is likely to be redressed by
a favorable judicial decision.” Id.
The three elements of Article III standing—injury,
causation, and redressability—must be supported “with
the manner and degree of evidence required at the
successive stages of the litigation.” Lujan v. Defenders
of Wildlife, 504 U.S. 555, 561 (1992). See also 31 Foster
Children v. Bush, 329 F.3d 1255, 1263 (11th Cir. 2003)
(“How much evidence is necessary to satisfy [the
standing requirement] depends on the stage of
litigation at which the standing challenge is made.”).

App. 9
At the “pleading stage, general factual allegations of
injury resulting from the defendant’s conduct may
suffice, for on a motion to dismiss we ‘presum[e] that
general allegations embrace those specific facts that
are necessary to support the claim.’” Bennett v. Spear,
520 U.S. 154, 168 (1997) (citation omitted). See also
Moody v. Warden, 887 F.3d 1281, 1286 (11th Cir. 2018).
“At least one plaintiff must have standing to seek
each form of relief requested in the complaint.” Town
of Chester v. Laroe Estates, Inc., 137 S. Ct. 1645, 1651
(2017). See also id. at 1650 (standing must exist “for
each claim and . . . for each form of relief that is
sought”). Where, as here, the plaintiffs seek to proceed
as a class, only one named plaintiff for each proposed
class needs to have standing for a particular claim to
advance. In other words, if “we have at least one
individual plaintiff who has demonstrated standing,”
we do not need to “consider whether the other . . .
plaintiffs have standing to maintain the suit.”
Arlington Heights v. Metro. Hous. Dev. Corp., 429 U.S.
252, 264 & n.9 (1977). See also Griffin v. Dugger, 823
F.3d 1476, 1483 (11th Cir. 1987) (explaining that “a
claim can[ ] be asserted on behalf of a class [if] at least
one named plaintiff” has standing).
The plaintiffs, as noted, are asserting only state-law
claims. But we have held that Article III’s standing
requirements apply to state-law claims brought in
federal court. See Nicklaw v. Citimortgage, Inc., 839
F.3d 998, 1002–03 (11th Cir. 2016) (holding that the
plaintiff lacked standing to assert claims under New
York law because he did not allege that he sustained a
concrete injury). Accord Hagy v. Demers & Adams, 882

App. 10
F.3d 616, 624 (6th Cir. 2016); Miller v. Redwood
Toxicology Lab., Inc., 688 F.3d 928, 933–35 (8th Cir.
2012); Cantwell v. City of Long Beach, 241 F.3d 674,
683–84 (9th Cir. 2001); 13B Charles A. Wright, Arthur
R. Miller, & Edward H. Cooper, Federal Practice and
Procedure § 3531.14, at 298 (3d ed. 2019 supp.); 15
Moore’s Federal Practice § 101.33, at 101-36.5 (3d ed.
2019). So the plaintiffs must satisfy Article III with
respect to their claims.
B
At least some of the named plaintiffs representing
the DNC donor class and the Sanders donor class have
sufficiently alleged injury-in-fact for their fraud,
negligent misrepresentation, CPPA, and unjust
enrichment claims. The named plaintiffs for the DNC
donor class plaintiffs and the Sanders donor class
allege that they suffered a financial loss resulting from
their donations to the DNC and to the Sanders
campaign. See First Amended Complaint at ¶¶ 2–109,
176–77. Such economic harm is a well-established
injury for purposes of Article III standing. See, e.g.,
Chevron Corp. v. Donzinger, 833 F.3d 74, 120 (2d Cir.
2016) (“Any monetary loss suffered by the plaintiff
satisfies the injury-in-fact element.”). The alleged
economic injury is also concrete and particularized, see
Lujan, 504 U.S. at 560, because all named plaintiffs for
the DNC donor class and the Sanders donor class
alleged that they donated a specific amount of money
and suffered a corresponding loss. Indeed, the
complaint lists the precise dollar amount of each
named plaintiff’s donation(s). See Sweigert v. Perez, 334
F. Supp. 3d 36, 42 (D.D.C. 2018) (holding, in a similar

App. 11
case against the DNC and some of its officials, that the
plaintiff’s “alleged loss of $30 [made as a donation to
the Sanders campaign] is indeed sufficiently concrete,
particularized, and actual to satisfy the injury-in-fact
requirement of standing”).
Causation is next. To satisfy Article III’s causation
requirement, the named plaintiffs must allege that
their injuries are “connect[ed] with the conduct of
which [they] complain.” Trump v. Hawai’i, 138 S. Ct.
2392, 2416 (2018). See also Duke Power Co. v. Envtl.
Study Grp., 438 U.S. 59, 75 n.20 (1978) (explaining
that Article III standing “require[s] no more than a
showing that there is a substantial likelihood” of
causation) (quotation marks omitted). Significantly,
“[p]roximate causation is not a requirement of Article
III standing, which requires only that the plaintiff’s
injury be fairly traceable to the defendant’s conduct.”
Lexmark Int’l, Inc. v. Static Control Components, Inc.,
572 U.S. 118, 134 n.6 (2014). “[E]ven harms that flow
indirectly from the action in question can be said to be
‘fairly traceable’ to that action for standing purposes.”
Focus on the Family v. Pinellas Suncoast Transit Auth.,
344 F.3d 1263, 1273 (11th Cir. 2003). A plaintiff
therefore need not show (or, as here, allege) that “the
defendant’s actions are the very last step in the chain
of causation.” Bennett, 520 U.S. at 168–69. See also
Moody, 887 F.3d at 1285 (explaining that we “must not
confuse weakness on the merits with absence of Article
III standing”) (citation and quotation marks omitted).
The named plaintiffs for the DNC donor class
sufficiently pled causation. First, they alleged that Ms.
Wasserman Schultz and Ms. Shulman made several

App. 12
public (and allegedly false) statements between
September of 2015 and May of 2016 affirming that the
DNC would run the Democratic presidential primary
process in an impartial way. These statements, as set
forth in the complaint, were disseminated by
prominent national media outlets. Second, some of the
named plaintiffs representing the DNC donor class
(Ms. Young and Ms. Criddle) alleged that they made
direct donations to the DNC after some of the
purportedly false statements were made and before the
hacked documents were published. And they expressly
alleged that they relied on the false statements to their
detriment. Given these allegations, a fair inference is
that at least some of the named plaintiffs representing
the DNC donor class donated money to the DNC based
on the allegedly false statements made by Ms.
Wasserman Schultz and Ms. Shulman. See Bennett,
520 U.S. at 168. Stated differently, “[b]ecause Article
III ‘requires no more than de facto causality,’
traceability is satisfied here.” Dept. of Commerce v.
New York, 139 S.Ct. 2551, 2566 (2019) (citation
omitted). See also Mann v. Bahi, 251 F. Supp. 3d 112,
119–20 (D.D.C. 2017) (holding that plaintiffs had
standing to bring a CPPA claim because they alleged
that the defendants made certain misrepresentations,
that they relied on those misrepresentations, and that
they suffered injury in the form of sub-par nursing
services).
The same cannot be said for the named plaintiffs
representing the Sanders donor class. The critical
question is whether the plaintiffs’ injuries are fairly
traceable to the defendants’ allegedly false statements,
and on that question there are just too many

App. 13
unknowns. Although they too alleged that they relied
on the false statements to their detriment, not a single
named plaintiff who contributed money to the Sanders
campaign set out the dates (exact or approximate) of
his or her donations. We do not know why the
complaint omits the dates of all donations to the
Sanders campaign, but the silence makes it impossible
to know whether any named plaintiffs representing the
Sanders donor class made their donations before or
after the false statements were made, or before or after
the publication of the hacked documents in June of
2016, or before or after Senator Sanders endorsed
Secretary Clinton in July of 2016. These details matter.
If, for example, those who donated money to the
Sanders campaign did so before the false statements
were made, the statements could not have caused them
financial injury. See Sweigert, 334 F. Supp. 3d at 43
(explaining in a similar case that causation was not
adequately pled because the complaint was devoid of
allegations that the plaintiff donated money in reliance
on anything the DNC or its officials said or did).
That leaves redressability for the DNC donor class
with respect to their claims. At least some of the named
plaintiffs representing the DNC donor class have
satisfied that element. To have Article III standing, a
plaintiff need not demonstrate anything “more than . . .
a substantial likelihood” of redressability. Duke Power
Co., 438 U.S. at 79. See also Made in the USA Found.
v. United States, 242 F.3d 1300, 1310–11 (11th Cir.
2001) (explaining that even partial relief suffices for
redressability). The economic injuries here consist of
the monetary donations made to the DNC based on the
allegedly false statements about its impartiality during

App. 14
the presidential primary process. If the plaintiffs were
to prevail on their claims, they could obtain money
damages in the form of full or partial refunds of their
donations. Such relief would sufficiently redress their
alleged economic harm for purposes of standing. See,
e.g., Resnick v. AvMed, Inc., 693 F.3d 1317, 1324 (11th
Cir. 2012) (“Plaintiffs allege a monetary injury and an
award of compensatory damages would redress that
injury.”); America’s Cmty. Bankers v. FDIC, 200 F.3d
822, 828–29 (D.C. Cir. 2000) (holding, in a suit
challenging certain past FDIC bank assessments as
improper, that receiving a refund of those assessments
or a credit against future assessments would provide
the plaintiffs with redress).
III
Because of its rulings on standing, the district court
did not reach the defendants’ Rule 12(b)(6) arguments
that the claims in the complaint were substantively
insufficient. The defendants press those arguments on
appeal as an alternative basis for affirmance.
We may affirm the district court’s order of dismissal
on any ground supported by the record. See Krutzig v.
Pulte Home Corp., 602 F.3d 1231, 1234 (11th Cir.
2010). Exercising de novo review, see Eagle Hosp.
Physicians, LLC. v. SRG Consulting, Inc., 561 F.3d
1298, 1303 (11th Cir. 2009), we hold that the fraud,
negligent misrepresentation, CPPA, and unjust
enrichment claims of the DNC donor class fail on the
merits.2
2

The plaintiffs argue that the defendants were barred from
making Rule 12(b)(6) arguments because they had earlier filed a

App. 15
Before addressing the claims, we confront the issue
of the applicable law. The complaint is silent on what
law governs each of the common-law claims, but in
their reply brief the plaintiffs apply Florida law to their
claims for fraud, negligent misrepresentation, and
unjust enrichment. See Reply Br. for Appellants at
18–20 (citing Florida cases). Where necessary, we will
do the same. Cf. Sun Life Assurance Co. of Can. v.
Imperial Premium Fin., LLC, 904 F.3d 1197, 1208
(11th Cir. 2018) (“Under our precedents, a party waives
its opportunity to rely on non-forum law where it fails
to timely provide—typically in its complaint or the first
motion in response when choice-of-law matters—the
sources of non-forum law on which it seeks to rely.”).
A
Plaintiffs alleging fraud must “state with
particularity the circumstances constituting fraud or
mistake.” Fed. R. Civ. P. 9(b). “Rule 9(b)’s heightened
pleading standar d applies to negligent
misrepresentation claims” asserted under Florida law
because such claims sound in fraud. See Lamm v. State
Street Bank & Trust, 749 F.3d 938, 951 (11th Cir.
2014). See also Souran v. Travelers Ins. Co., 982 F.2d
1497, 1511 (11th Cir. 1993) (Cox, J., concurring in the
result) (“Historically, in Florida an action for negligent
motion to dismiss for insufficient service of process under Rule
12(b)(5). The district court disagreed, construing that first-in-time
motion as a motion to quash service of process. We agree with the
district court’s characterization of the defendants’ motions. We
therefore conclude that nothing barred the defendants from
making their Rule 12(b)(6) arguments, and nothing prevents us
from considering the sufficiency of the plaintiffs’ claims.

App. 16
misrepresentation sounds in fraud rather than
negligence.”).
“[P]ursuant to Rule 9(b), a plaintiff must allege:
(1) the precise statements, documents, or
misrepresentations made; (2) the time, place and
person responsible for the statement; (3) the content
and manner in which these statements misled [him];
and (4) what the defendants gained by the alleged
fraud.” Am. Dental Ass’n v. Cigna Corp., 605 F.3d 1283,
1291 (11th Cir. 2010) (quotation marks omitted). A
bare allegation of reliance on alleged
misrepresentations, bereft of any additional detail, will
not suffice under Rule 9(b). See 5A Charles A. Wright,
Arthur R. Miller, & A. Benjamin Spencer, Federal
Practice & Procedure § 1297, at 46 (4th ed. 2018)
(“[S]imply alleg[ing] the technical elements of fraud
without providing . . . underlying supporting details
will not satisfy the rule’s pleading-with-particularity
requirement.”).
The named plaintiffs representing the DNC donor
class have not satisfied Rule 9(b)’s pleading
requirements. Specifically, they have failed to allege
with particularity the manner in which they relied on
the defendants’ statements. For example, they did not
allege on which of the statements they relied. See
Recording of Oral Argument, Dec. 11, 2018, at
16:45–17:00 (“We did not allege . . . specific reliance on
any given statement by any of our clients.”). So,
although the general allegation of reliance is not fatal
to the Article III standing of the DNC donor class, it
falls short of Rule 9(b)’s heightened pleading standard.
See, e.g., Recreational Design & Constr., Inc. v. Wiss,

App. 17
Janney, Elstner Assocs., Inc., 820 F. Supp. 2d 1293,
1303–04 (S.D. Fla. 2011) (dismissing a claim for
negligent misrepresentation because, among other
things, the allegation that the plaintiff “suffered
pecuniary damages in justifiable reliance” on the
defendants’ false statements was conclusory and lacked
factual support). The claims for fraud and negligent
misrepresentation are therefore dismissed.
B
Whether a plaintiff has Article III standing is a
question distinct from whether she has a statutory
cause of action. See Lexmark, 572 U.S. at 126–28. We
conclude, for a number of reasons, that the CPPA claim
of the DNC donor class fails the plausibility standard
set out in cases like Bell Atlantic Corp. v. Twombly, 550
U.S. 544, 556–57 (2007).
As noted, the CPPA prohibits various unfair or
deceptive trade practices. See D.C. Code § 28-3904 (“It
shall be a violation of this chapter for any person to
engage in an unfair or deceptive trade practice,
whether or not any consumer is in fact misled, deceived
or damaged thereby[.]”). It allows a “consumer [to]
bring an action seeking relief from the use of a trade
practice in violation of a law of the District [of
Columbia].” D.C. Code § 28-3905(k)(1)(A). A
“consumer,” in turn, is a person who “does or would
purchase . . . or receive consumer goods or services.”
D.C. Code § 28-3901(a)(2)(A). See also Price v. Indep.
Fed. Sav. Bank, 110 A.3d 567, 574 (D.C. 2015) (“[I]n
order to obtain redress under the CPPA, [the plaintiffs]
must be ‘consumers,’ defined as ‘a person who . . . does
or would purchase . . . or receive consumer goods or

App. 18
services.’”) (quoting § 28-3901(a)(2)(A)). As a result,
“the CPPA does not cover all consumer transactions,
and instead only covers trade practices arising out of
consumer-merchant relationships.” Sundberg v. TTR
Realty, LLC, 109 A.3d 1123, 1129 (D.C. 2015).
The named plaintiffs representing the DNC donor
class made their donations directly to the DNC, which
is a non-profit corporation. See First Amended
Complaint at ¶¶ 103–09, 153. Because there are no
allegations that any of them purchased or received any
consumer goods or services, they are not “consumers”
under the CPPA. See Silvious v. Coca-Cola Co., 893 F.
Supp. 2d 233, 236 (D.D.C. 2012) (prisoner who had not
purchased Coca-Cola was not a “consumer” under the
CPPA and could not sue the soft-drink’s manufacturer
for fraudulent labeling); Slaby v. Fairbridge, 3 F. Supp.
2d 22, 27 (D.D.C. 1998) (person whose research
proposals were rejected by a federal agency was not a
“consumer” under the CPPA because her claim did not
arise out of the purchase or receipt of consumer goods
or services).
We note, as well, that the DNC is not subject to
liability under the CPPA for the conduct set out in the
complaint. As the plaintiffs alleged, the DNC is a nonprofit entity, and the CPPA limits the liability of nonprofit organizations: “An action brought . . . against a
non-profit organization shall not be based on
membership in such organization, membership
services, training or credentialing services, . . . or any
other transaction, interaction, or dispute not arising
from the purchase or sale of consumer goods or services
in the ordinary course of business.” D.C. Code § 28-

App. 19
3905(k)(5). In the words of the D.C. Circuit, “the
available evidence suggests that the D.C. Council acted
specifically to shield non-profit organizations from
statutory liability for membership-related disputes.” In
re APA Assessment Fee Litig., 766 F.3d 39, 53 (D.C. Cir.
2014). Here the complaint frames a dispute between
the DNC and some of its supporters concerning
organizational behavior. Because there are no
allegations that the DNC acted as a merchant or sold
or provided consumer goods and services to the
plaintiffs, the CPPA claim fails.3
C
The elements of an unjust enrichment claim in
Florida are “a benefit conferred upon a defendant by
the plaintiff, the defendant’s appreciation of the
benefit, and the defendant’s acceptance and retention
of the benefit under circumstances that make it
inequitable for him to retain it without paying the
value thereof.” Fla. Power Corp. v. City of Winter Park,
887 So. 2d 1237, 1241 n.4 (Fla. 2004). “In Florida, a
claim for unjust enrichment is an equitable claim based
on a legal fiction which implies a contract as a matter
of law even though the parties to such an implied
contract never indicated by deed or word that an

3

The plaintiffs argue that the members of the Sanders donor class
are “consumers” within the meaning of the CPPA because they
made their contributions to the Sanders campaign through
ActBlue, a political action committee which charges a 3.95% fee for
processing services on each donation. See Reply Br. for Appellants
at 22–23. We do not address this argument because, as we have
explained, the named plaintiffs representing the Sanders donor
class lack Article III standing.

App. 20
agreement existed between them.” 14th & Heinberg,
LLC v. Terhaar & Cronley Gen. Contractors, Inc., 43
So. 3d 877, 880 (Fla. Dist. Ct. App. 2010) (citation
omitted).
The DNC and Ms. Wasserman Schultz argue that
the unjust enrichment claim of the DNC donor class
fails because the complaint does not allege facts which
imply a contract as a matter of law, which they say is
required in Florida. They also contend that
contributions to political campaigns are not contracts,
express or implied, and assert that courts have rejected
similar unjust enrichment claims. See Br. for Appellees
at 29–30 (citing IberiaBank v. Coconut 41, LLC, 984 F.
Supp. 2d 1283, 1296 (M.D. Fla. 2013), aff’d, 589 F.
App’x 479 (11th Cir. 2014), and Found. for
Developmentally Disabled, Inc. v. Step by Step Early
Childhood Educ. & Therapy Ctr., 29 So. 3d 1221, 1227
(Fla. Dist. Ct. App. 2010)).
Instead of responding to these arguments, and
addressing the cases cited by the defendants, the
plaintiffs merely set out the elements of an unjust
enrichment claim and say—without any elaboration—
that they have alleged these elements. See Reply Br.
for Appellants at 23–24. That conclusory assertion,
“without supporting arguments and authority,”
Sappuppo v. Allstate Floridian Ins. Co., 739 F.3d 678,
681 (11th Cir. 2014), is the same response that the
plaintiffs submitted in the district court, see D.E. 48 at
15, and fails to address the defendants’ arguments.
We agree with the defendants that the plaintiffs in
the DNC donor class have failed to state a claim for
unjust enrichment. Under Rule 8, a complaint must

App. 21
allege sufficient underlying facts to make a claim
plausible, and the mere formulaic recitation of
elements or legal conclusions will not suffice. See, e.g.,
Twombly, 550 U.S. at 555–56. And that pleading
standard applies to state-law claims litigated in federal
court. See Palm Beach Golf Center-Boca, Inc. v. John G.
Sarris, D.D.S., P.A., 781 F.3d 1245, 1259–60 (11th Cir.
2015). The unjust enrichment claim here contains no
factual allegations explaining (a) why Florida law
would deem it necessary or appropriate to imply a
contract between the DNC and those who contributed
money to it, or (b) why it would be inequitable for the
DNC to retain the donations made by the members of
the DNC donor class. For example, we do not know if
the named plaintiffs in the DNC donor class gave
money to the DNC to assist with a Democratic
presidential primary they believed would be impartial,
or to support Democratic candidates running for other
offices throughout the country, or to fund projects and
policies advanced by the DNC. Why the members of the
DNC donor class donated money is, in this context,
important. Had the plaintiffs in the DNC donor class
alleged that they gave money to the DNC in order to
support an impartial presidential primary, then we
would be better able to evaluate whether it is plausible
that a contract could or should be implied under
Florida law, and whether the DNC’s retention of the
donations was inequitable. Absent any allegations as to
the reasons for their donations, the plaintiffs have not
made out a plausible unjust enrichment claim under
Florida law.

App. 22
IV
The plaintiffs in the Democratic voter class
separately alleged a breach of fiduciary duty by the
DNC and Ms. Wasserman Schultz. As we explain,
these plaintiffs have failed to allege an injury-in-fact
sufficient to confer Article III standing.
None of the plaintiffs in the Democratic voter class
allege that they made monetary contributions to the
DNC. See First Amended Complaint at ¶¶ 110–51, 178.
So, unlike the claims asserted on behalf of the DNC
and Sanders donor classes, the fiduciary duty claim
does not involve an allegation of direct (or even
indirect) economic harm. Cf. Fleming v. Charles
Schwab Corp., 878 F.3d 1146, 1151 (9th Cir. 2017)
(holding that investor’s allegation of higher execution
prices for trades established injury-in-fact for a breach
of fiduciary duty claim).
In their brief, the plaintiffs assert that “[v]iolations
of common law rights protected by the common law of
torts and restitution are sufficient for standing
purposes.” Br. for Appellants at 13 (quoting United
States v. Real Property, All Furnishings Known as
Bridwell’s Grocery, 195 F.3d 819, 821 (6th Cir. 1999)).
There is admittedly some support for the notion that
the mere violation of a state-law right satisfies Article
III even in the absence of an identifiable injury. See
FMC Corp. v. Boesky, 852 F.2d 981, 993 (7th Cir. 1988)
(plurality opinion: “Properly pleaded violations of statecreated rights . . . must suffice to satisfy Article III’s
injury requirement.”). But our precedent is to the
contrary. We require plaintiffs asserting violations of
state-created rights to demonstrate a concrete injury;

App. 23
the defendant’s violation of those rights is not enough.
See Nicklaw, 839 F.3d at 1002–03. Cf. Trustees of
Upstate N.Y. Eng’rs Pension Fund v. Ivy Asset Mgmt.,
843 F.3d 561, 569 (2d Cir. 2016) (“[A] breach of
fiduciary duty under ERISA in and of itself does not
constitute an injury in fact sufficient for constitutional
standing.”) (citation omitted).
The plaintiffs in the Democratic voter class do not
allege any injury resulting from the defendants’ alleged
breaches of their fiduciary duty. The complaint says only
that the plaintiffs in the Democratic voter class were
“proximately damaged” by the alleged breaches. See First
Amended Complaint at ¶ 215. Indeed, the plaintiffs
conceded at oral argument that the complaint does not
specify any resulting injuries. See Recording of Oral
Argument, Dec. 11, 2018, at 2:20–2:45 (“The complaint
does not, with respect to the fiduciary duty claim, spell
out the nature of the damages.”). That concession, which
confirms the complaint’s deficiencies, is fatal to the
standing of the plaintiffs in the Democratic voter class.
Cf. DiMaio v. Democratic Nat’l Comm., 520 F.3d 1299,
1302 (11th Cir. 2008) (Florida Democratic voter who
claimed that the DNC would violate his Article II and
Fourteenth Amendment rights by not seating delegates
from Florida at the Democratic National Convention
failed to plead the invasion of a legally protected right
because, among other things, he failed to allege that he
had cast a ballot in the Florida Democratic Primary).4

4

Given our conclusion that the plaintiffs in the Democratic voter
class did not adequately allege injury-in-fact, we need not and do
not address the redressability concerns articulated by the district
court. See Wilding, 2017 WL 6345492, at *6.

App. 24
When pressed at oral argument to clarify the nature
of their injuries, the plaintiffs suggested two possible
ones: a reduction in the “value” of the DNC, and harm
to the “viability” of the Democratic Party as a
participant in national politics. See Recording of Oral
Argument, Dec. 11, 2018, at 5:15–7:45. But even
assuming that those injuries would suffice, their
articulation comes too late. The plaintiffs’ complaint
must contain “general factual allegations of injury
resulting from the defendant[s]’conduct,” Bennett, 520
U.S. at 168, and that complaint cannot be
supplemented at oral argument. Where, as here, a
complaint is facially deficient, a court “lacks the power
to create jurisdiction by embellishing a deficient
allegation of injury.” Bochese, 405 F.3d at 976.
Part of the problem is caused by the complaint’s
complete failure to say anything at all about the source,
nature, or scope of the alleged fiduciary duty. Under
District of Columbia law, on which the plaintiffs rely,
a fiduciary duty requires circumstances such that a
“relationship of trust may properly be implied.” Kemp
v. Eiland, 139 F. Supp. 3d 329, 343 (D.D.C. 2013). All
the complaint alleges is that the DNC and Ms.
Wasserman Schultz “had a fiduciary duty” to the
plaintiffs in the Democratic voter class. See First
Amended Complaint at ¶ 213.
“Although standing in no way depends on the merits
of the plaintiffs’ contention that particular conduct is
illegal, it often turns on the nature and source of the
claim alleged.” Warth v. Seldin, 422 U.S. 490, 500
(1975) (citation omitted). See 15 Moore’s Federal
Practice § 101.33, at 101-36.6 (“State law may create

App. 25
the legal interest in a federal case, as it often does
when federal jurisdiction is based on diversity.”). Had
the plaintiffs specified in the complaint what the
alleged fiduciary duty was, or how it came to be, then
maybe it would have been possible to determine
without speculation how they were injured by the
alleged breaches. See Scanlan v. Eisenberg, 669 F.3d
838, 842 (7th Cir. 2012) (“That Scanlan must suffer an
invasion of a legally protected interest is a principle of
federal law. But the nature and extent of Scanlan’s
interest as a beneficiary of a discretionary trust, and
therefore, whether that interest can form the basis of
a federal suit, depend on the law that defines the rights
of a discretionary beneficiary.”). Although chapter and
verse are not required, a blank page by definition will
usually not provide enough for a court to plausibly infer
a fiduciary relationship in this political party setting.5

5

In their reply brief, the plaintiffs try to provide the framework for
a fiduciary duty theory under District of Columbia law. First, the
plaintiffs say they were members of the Democratic Party and
donated money to the DNC and to the Sanders campaign. Second,
they reason that because of their donations, the DNC and Ms.
Wasserman Schultz owed them a “duty to ensure a fair and
equitable nomination process and not to secretly conspire against
Senator Sanders’ presidential campaign.” Reply Br. for Appellants
at 26. Even if we could consider this new theory, it would not
change the result. The complaint does not allege that registration
in the Democratic Party, without more, imposes a fiduciary duty
on the DNC or Ms. Wasserman Schultz. And it does not allege that
any of the plaintiffs in the Democratic voter class made any
monetary contributions to the DNC.

App. 26
V
In their brief, the plaintiffs argue that the district
court should have granted them leave to amend the
complaint’s allegations regarding standing. We
disagree.
The plaintiffs had already amended their complaint
once as of right, and district courts are not required to
sua sponte grant counseled plaintiffs leave to amend
their complaint in the absence of a request for such
relief. See Wagner v. Daewoo Heavy Indus. Am. Corp.,
314 F.3d 541, 542 (11th Cir. 2002) (en banc). The
plaintiffs did not seek to amend their complaint a
second time to cure any standing or substantive
deficiencies, and they did not explain “how the
complaint could be amended to save the[ir] claim[s].”
U.S. ex rel. Atkins v. McInteer, 470 F.3d 1350, 1362
(11th Cir. 2006). We therefore conclude that the district
court did not err in dismissing the complaint without
sua sponte granting the plaintiffs leave to file a second
amended complaint.
VI
We are mindful that there are deep disagreements
within (and outside) the Democratic Party about the
DNC’s alleged conduct during the 2016 primaries. See,
e.g., John Baglia, Legal Solutions to a Political Party
National Committee Undermining U.S. Democracy, 51
John Marshall L. Rev. 107, 108–09, 118–19 (2017). But
federal courts can only adjudicate cognizable claims,
and the complaint here fails on a number of
jurisdictional and substantive grounds.

App. 27
The district court’s order of dismissal is affirmed,
but the case is remanded so that the district court can
amend its order consistent with our opinion. The order
should dismiss the fraud, negligent misrepresentation,
CPPA, and unjust enrichment claims—which fail on
the merits—with prejudice, and dismiss the negligence
and fiduciary duty claims—which fail for lack of
standing—without prejudice.
AFFIRMED.

App. 28

APPENDIX B
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
Nos. 17-14194-HH
[Filed January 10, 2018]
________________________________
CAROL WILDING, STANLEY
)
RIFKEN, SHARON CRAWFORD, )
WILLIAM SCOTT FRANZ,
)
DAVID PULASKI, MARY
)
JASMINE WELCH, JOSE
)
ALBERTO GONZALEZ, JANE
)
ELLEN PLATTNER, KIM
)
MARIE HOULE, TIMOTHY
)
BINGEN SUSAN REED,
)
ANGELA MONSON, IMEE R.
)
COLEMAN, ELESHA SNYDER, )
MATTHEW SHAW, ZACHARY
)
JAMES HANEY, ESTRELLA
)
GONZALEZ, CAHTERINE G
)
CYKO, LAURA GENNA,
)
MARIANNE BLAIR,
)
AMARA L. JOHNSTON
)
VALERIE ELYSE RESCH,
)
BRETT TEEGARDIN, DANIEL
)
O’MEARA, PEGGY LEW, et al.,
)
)
Plaintiffs-Appellants,
)
)
versus
)

App. 29
DNC SERVICES CORPORATION, )
DEBORAH WASSERMAN
)
SCHULTZ,
)
)
Defendants-Appellees.
)
________________________________ )
_____________________
Appeal from the United States District Court
for the Southern District of Florida
_____________________
Before: WILSON, ROSENBAUM, and NEWSOM,
Circuit Judges.
BY THE COURT:
Plaintiffs-appellants’ motion to amend the
complaint is GRANTED. The second amended
complaint is sufficient to establish minimal diversity
under the Class Action Fairness Act. See 28 U.S.C.
§ 1332(d)(2); Wright Transp., Inc. v. Pilot Corp., 841
F.3d 1266, 1270 (11th Cir. 2016); Mallory & Evans
Contractors & Eng’rs, LLC v. Tuskegee Univ., 663 F.3d
1304, 1305 (11th Cir. 2011). Accordingly, we deem the
pleadings as so amended and this appeal may proceed.
See 28 U.S.C. § 1653.
The plaintiffs-appellants are directed to file notice
of this order in the district court, along with a copy of
the second amended complaint and this order granting
the motion to amend.

App. 30

APPENDIX C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 16-61511-CIV-ZLOCH
[Filed August 25, 2017]
_______________________________________
CAROL WILDING, et al.,
)
Plaintiffs,
)
)
vs.
)
)
DNC SERVICES CORP., d/b/a/
)
Democratic National Committee and
)
DEBORAH WASSERMAN SCHULTZ,
)
Defendants.
)
______________________________________ )
FINAL ORDER OF DISMISSAL
THIS MATTER is before the Court upon
Defendants’ Motion To Dismiss Plaintiffs’ First
Amended Complaint (DE 44). The Court has carefully
reviewed said Motion, the entire court file, and, with
the benefit of oral argument, is otherwise fully advised
in the premises.
In the 2016 presidential election’s Democratic
primaries, Bernie Sanders and others vied against
Hillary Clinton for the Party’s nomination. This case,
in short, involves allegations that the Democratic

App. 31
National Committee1 was in cahoots with the Clinton
campaign and sought to tip the scales in her favor in
the Democratic primaries, all at the direction of, and
under the leadership and watchful eye of, its thenchair, Deborah Wasserman Schultz, despite the DNC’s
and Wasserman Schultz’s promise to remain impartial.
Plaintiffs discovered what they believe is evidence of
that bias after the DNC’s computer servers were
penetrated by hackers. Shortly thereafter, they brought
this putative class action against the DNC and its
former chair.
In evaluating Plaintiffs’ claims at this stage, the
Court assumes their allegations are true——that the
DNC and Wasserman Schultz held a palpable bias in
favor Clinton and sought to propel her ahead of her
Democratic opponents. Plaintiffs assert several fraudtype claims. But they do not allege they ever heard or
acted upon the DNC’s claims of neutrality. Plaintiffs
also assert a tort claim on behalf of all registered
Democrats, even though the harm they allege impacted
all Democratic-primary-eligible voters——and under
their theory, the entire body politic——the same way.
And finally, Plaintiffs claim that donors to the DNC are
at an increased risk of identity theft as a result of the
computer hack. But they do not allege that the DNC
regularly keeps the type of information necessary to
facilitate identity theft or that the hackers targeted,
much less obtained, that information. The Court must
now decide whether Plaintiffs have suffered a concrete
injury particularized to them, or one certainly
1

The Court will refer to Defendant DNC Services Corp. as the
“DNC.”

App. 32
impending, that is traceable to the DNC and its former
chair’s conduct——the keys to entering federal court.
The Court holds that they have not, which means the
truth of their claims cannot be tested in this Court.
I.
According to the First Amended Complaint (DE 8),
the DNC is the formal governing body for the
Democratic Party in the United States. Its role is to
coordinate strategy in support of Democratic Party
candidates in local, state, and national elections. With
respect to the presidential election, the DNC organizes
the Democratic National Convention in order to
nominate and confirm a Democratic candidate for the
presidency. At the time Plaintiffs filed the First
Amended Complaint (DE 8), Deborah Wasserman
Schultz served as the DNC’s Chairperson and presently
serves as a member of the United States House of
Representatives.
Through its Charter and Bylaws, the DNC has
obliged itself to a policy of neutrality among
Democratic presidential candidates. To that end, as it
pertains to the “Presidential nominating process, the
Chairperson shall exercise impartiality and
evenhandedness as between Presidential candidates
and campaigns. The Chairperson shall be responsible
for ensuring that the national officers and staff of the
Democratic National Committee maintain impartiality
and evenhandedness during the Democratic Party
Presidential nominating process.” DE 8, ¶ 159
(emphasis supplied in Complaint). Wasserman Schultz
and other DNC officials touted this policy in public
statements during presidential primaries. Plaintiffs

App. 33
attribute the following quotes to Wasserman Schultz or
other DNC staff:
• “I count Secretary Clinton and Vice President
Biden as dear friends, but no matter who
comprises the field of candidates it’s my job
to run a neutral primary process and that’s
what I am committed to doing.”
• “the DNC runs an impartial primary
process.”
• “the DNC runs an impartial primary process,
period.”
• “the Democratic National Committee
remains neutral in this primary, based on
our rules.”
• “even though Senator Sanders has endorsed
my opponent, I remain, as I have been from
the beginning, neutral in the presidential
Democratic primary.”
DE 8, ¶ 160.
Plaintiffs allege that despite the DNC’s Charter and
Bylaws, and these public statements of neutrality and
impartiality, the DNC devoted its resources to
supporting Hillary Clinton over other Democratic Party
candidates. The DNC’s bias, according to Plaintiffs,
came to light after computer hackers penetrated the
DNC’s computer network. An individual identified as
“Guccifer 2.0” took credit for the hack and posted
several documents purportedly taken from the DNC’s
servers on a publically accessible website. Those

App. 34
documents include: excel spreadsheets containing
information of DNC donors; spreadsheets containing
information of donors to Hillary Clinton’s campaign;
research regarding Hillary Clinton’s campaign,
including vulnerabilities, attacks, rebuttals, policy
positions, and opposition research on other Democratic
candidates; and various other documents regarding
Hillary Clinton’s presidential campaign. DE 8, ¶¶ 165
& 169.
Also included in the documents released by
“Guccifer 2.0” was a memorandum dated May 26, 2015,
addressed to the DNC. That memorandum provides “a
suggested strategy for positioning and public
messaging around the 2016 Republican presidential
field,” including use of “specific hits to muddy the
waters around ethics, transparency and campaign
finance attacks on HRC.” DE 8-1. It states, “Our goals
in the coming months will be to frame the Republican
field and the eventual nominee early and to provide a
contrast between the GOP field and HRC.” Id. The
memorandum observes that “the right wing attack
machine has been building its opposition research on
Hillary Clinton for decades. HRC’s critics have been
telegraphing they are ready to attack and do so with
reckless abandon.” Id. As a tactical response, the
memorandum suggests “[w]orking with the DNC and
allied groups” to “help pitch stories with no fingerprints
and utilize reporters to drive a message” and “insert
our messaging into [Republican] press.” Id. The
memorandum closes with an invitation for further
discussion, “to answer the question of who do we want
to run against and how best to leverage other
candidates to maneuver them into the right place.” Id.

App. 35
Plaintiffs do not allege who authored this
memorandum, but as of May 26, 2016, the Democratic
presidential field already included both Clinton and
Sanders.
As a result of the information “Guccifer 2.0”
released, Plaintiffs conclude that “the DNC was
anything but ‘impartial,’ ‘evenhanded,’ or ‘neutral’ with
respect to the Democratic nominating process.” DE 8,
¶ 171. And all while Wasserman Schultz was the
DNC’s chair. Plaintiffs bring six causes of action on
behalf of three proposed classes. The first class
comprises “[a]ll people or entities who have contributed
to the DNC from January 1, 2015 through the date of
this action (‘DNC Donor Class’).” DE 8, ¶ 175. The
second, “[a]ll people or entities who have contributed to
the Bernie Sanders campaign from January 1, 2015
through the date of this action (‘Sanders Donor Class’).”
Id. And the third, “[a]ll registered members of the
Democratic Party (‘Democratic Party Class’).” Id. The
DNC Donor Class and the Sanders Donor Class each
assert causes of action for fraud, negligent
misrepresentation, and violation of § 28-3904 of the
District of Columbia Code (Counts I, II, and III,
respectively). The Democratic Party Class asserts a
cause of action for breach of fiduciary duty (Count V).
And the DNC Donor Class also asserts causes of action
for unjust enrichment and negligence (Counts IV and
VI, respectively).
The apparent theories for each of these causes of
action merit further discussion. The DNC Donor Class
and Sanders Donor Class Plaintiffs’ fraud and
negligent misrepresentation causes of action are

App. 36
premised on the theory that Plaintiffs, as well as
putative class members, donated either to the DNC or
Senator Sanders’s campaign in reliance on the DNC’s
promise of neutrality in the presidential primaries.
According to Plaintiffs, the DNC knew or should have
known that those promises of neutrality were false and
intended to induce members of the DNC Donor Class
and Sanders Donor Class’s reliance. The DNC Donor
Class Plaintiffs’ unjust enrichment cause of action is
largely coextensive with these fraud claims. And the
DNC Donor Class and Sanders Donor Class Plaintiffs’
cause of action for violation of § 28-3904 of the District
of Columbia Code presents a similar theory: that the
DNC falsely claimed it would remain neutral in the
Democratic presidential primaries. The Democratic
Party Class Plaintiffs’ cause of action for breach of
fiduciary duty suggests that the DNC owes a fiduciary
duty to all registered Democrats to comply with the
terms of the DNC’s Charter and Bylaws. By failing to
maintain impartiality and evenhandedness in the
Democratic presidential primaries, Plaintiffs believe
that the DNC breached this fiduciary duty. Lastly, the
DNC Donor Class Plaintiffs’ negligence cause of action
arises from the DNC’s failure to secure from computer
hackers Plaintiffs’ personal information.
The DNC and Wasserman Schultz have moved to
dismiss the First Amended Complaint (DE 8) on
various grounds. The DNC and Wasserman Schultz
argue that Plaintiffs lack standing to assert their
claims, that they have insufficiently pled those claims,
and that the class allegations must be stricken as
facially deficient.

App. 37
II.
This Order does not concern who should have been
the Democratic Party’s candidate for the 2016
presidential election; it does not concern whether the
DNC or Wasserman Schultz generally acted unfairly
towards Senator Sanders or his supporters; indeed, it
does not even concern whether the DNC was in fact
biased in favor of Hillary Clinton in the Democratic
primaries. At this stage, the Court is required to
construe the First Amended Complaint (DE 8) in the
light most favorable to Plaintiffs and accept its wellpled allegations as true. See Stalley ex rel. U.S. v.
Orlando Reg’l Healthcare Sys., Inc., 524 F.3d 1229,
1232-33 (11th Cir. 2008). The Court thus assumes that
the DNC and Wasserman Schultz preferred Hillary
Clinton as the Democratic candidate for president over
Bernie Sanders or any other Democratic candidate. It
assumes that they stockpiled information useful to the
Clinton campaign. It assumes that they devoted their
resources to assist Clinton in securing the party’s
nomination and opposing other Democratic candidates.
And it assumes that they engaged in these
surreptitious acts while publically proclaiming they
were completely neutral, fair, and impartial.
This Order therefore concerns only technical
matters of pleading and subject-matter jurisdiction. To
the extent Plaintiffs wish to air their general
grievances with the DNC or its candidate selection
process, their redress is through the ballot box, the
DNC’s internal workings, or their right of free
speech——not through the judiciary. To the extent
Plaintiffs have asserted specific causes of action

App. 38
grounded in specific factual allegations, it is this
Court’s emphatic duty to measure Plaintiffs’ pleadings
against existing legal standards. Having done so, and
for the reasons that follow, the Court finds that the
named Plaintiffs have not presented a case that is
cognizable in federal court.
IV.
Federal courts are courts of limited jurisdiction,
possessing “only that power authorized by Constitution
and statute.” Kokkonen v. Guardian Life Ins. Co. of
Am., 511 U.S. 375, 377 (1994). In cases that do not
present a federal claim for relief, like this one, that
power derives from 28 U.S.C. § 1332. Section 1332
authorizes this Court to exercise its jurisdiction in two
circumstances pertinent here. First, this Court has
“original jurisdiction of all civil actions where the
matter in controversy exceeds the sum or value of
$75,000, exclusive of interests and costs, and is
between . . . citizens of different states.” 28 U.S.C.
§ 1332(a). Section 1332(a) permits the exercise of
jurisdiction only where there is complete
diversity——that is, no plaintiff maintains citizenship
in the same state as any defendant. See Strawbridge v.
Curtiss, 7 U.S. (3 Cranch) 267 (1806); Triggs v. John
Crump Toyota, Inc., 154 F.3d 1284, 1287 (11th Cir.
1998). Second, except in circumstances not present
here, this Court has “original jurisdiction of any civil
action in which the matter in controversy exceeds the
sum or value of $5,000,000, exclusive of interest and
costs, and is a class action in which . . . any member of
a class of plaintiffs is a citizen of a State different from
any Defendant.” 28 U.S.C. § 1332(d)(2) (hereinafter

App. 39
“CAFA jurisdiction”). As the text makes plain,
§ 1332(d) requires only minimal diversity——at least
one plaintiff must be diverse from one defendant. See
Evans v. Walter Indus., Inc., 449 F.3d 1159, 1163 (11th
Cir. 2006).
It is readily apparent that this Court lacks
jurisdiction under § 1332(a), for the Parties are not
completely diverse. According to the First Amended
Complaint (DE 8), two Plaintiffs “reside” in the District
of Columbia, where the DNC maintains its citizenship.
Seven “reside” in Florida, where Wasserman Schultz
ostensibly maintains citizenship.2 But “[c]itizenship,
not residence, is the key fact that must be alleged in
the complaint to establish diversity for a natural
person.” Taylor v. Appleton, 30 F.3d 1365, 1367 (11th
Cir. 1994). Plaintiffs’ failure to properly allege their
own citizenship is, in itself, sufficient to preclude the
exercise of the Court’s jurisdiction under 1332(a).
Indeed, this pleading failure makes it impossible for
the Court to conclude that the Parties are even
minimally diverse for purposes of its CAFA
jurisdiction. See Travaglio v. Am. Exp. Co., 735 F.3d
1266, 1268 (11th Cir. 2013) (the plaintiff “must allege
facts that, if true, show federal subject matter
jurisdiction over her case exists”). And even if the
Court assumed that residence were the equivalent of
citizenship——an assumption the Court is not

2

As with the Plaintiffs, the First Amended Complaint (DE 8) does
not specifically allege Wasserman Schultz’s citizenship. Rather, it
alleges that she “resides in and is a Congresswoman representing
portions of this district.” DE 8, ¶ 1.

App. 40
permitted to make——Plaintiffs would still not be
completely diverse from Defendants.
Putting aside these pleading deficiencies, it is also
apparent that Plaintiffs lack standing to assert each of
the causes of action raised in this putative class action.
In order to maintain a class action lawsuit, the class
representatives——as distinct from the putative class
members——must establish their standing to sue, as
measured by the standard of Lujan v. Defenders of
Wildlife, 504 U.S. 555 (1992). See Allen v. Wright, 468
U.S. 737 (1984) (applying standing inquiry to a class
action); Carter v. West Pub. Co., 225 F.3d 1258, 1263
(11th Cir. 2003). The standing requirement stems from
Article III of the Constitution, which limits federal
courts’ jurisdiction to certain “Cases” and
“Controversies.” U.S. Const. Art. III; see Clapper v.
Amnesty Int’l USA, 133 S.Ct. 1138, 1146 (2013). The
Supreme Court has made clear that “[n]o principle is
more fundamental to the judiciary’s proper role in our
system of government than the constitutional
limitation of federal-court jurisdiction to actual cases or
controversies.” DaimlerChrysler Corp. v. Cuno, 547
U.S. 332, 341 (2006) (internal marks omitted). To
effectuate this limitation, Lujan laid out three basic
elements of Article III standing: “First, the plaintiff
must have suffered an ‘injury in fact’——an invasion of
a legally protected interest which is (a) concrete and
particularized . . . and (b) ‘actual or imminent, not
‘conjectural’ or ‘hypothetical.’’” Lujan, 504 U.S. at 560
(citations omitted). “Second, there must be a causal
connection between the injury and the conduct
complained of . . . .” Id. “Third, it must be ‘likely,’ as
opposed to merely ‘speculative,’ that the injury will be

App. 41
‘redressed by a favorable decision.’” Id. The class
representatives must meet each of these elements to
pursue not only their own claims, but the class
members’ claims as well. See Prado-Steiman ex re.
Prado v. Bush, 221 F.3d 1266, 1279 (11th Cir. 2000).
a.
As to the fraud-type claims Counts I, II, III and IV,
Plaintiffs fail to allege any causal connection between
their injuries and Defendants’ statements. The
Plaintiffs asserting each of these causes of action
specifically allege that they donated to the DNC or to
Bernie Sanders’s campaign. See DE 8, ¶¶ 2-109. But
not one of them alleges that they ever read the DNC’s
charter or heard the statements they now claim are
false before making their donations. And not one of
them alleges that they took action in reliance on the
DNC’s charter or the statements identified in the First
Amended Complaint (DE 8). Absent such allegations,
these Plaintiffs lack standing. See Lujan, 504 U.S. at
560. To be sure, two paragraphs of the First Amended
Complaint (DE 8) assert generally that the “DNC
Donor Class Plaintiffs, the Sanders Donor Class
Plaintiffs, and members of the DNC Donor Class and
the Sanders Donor Class, relied on Defendants’ false
statements and omissions to their injury.” DE 8, ¶¶ 188
& 195.3 But this boilerplate recitation, absent factual
content to support it, does not permit the Court to
“determine that at least one named class
representative has Article III standing to raise each

3

Paragraph 195 alleges “justifiable reliance” but is otherwise the
same as paragraph 188.

App. 42
class claim.” Prado-Steiman, 221 F.3d at 1279; cf.
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (“A pleading
that offers ‘labels and conclusions’ or ‘a formulaic
recitation of the elements of a cause of action will not
do.’”).
Nor do these Plaintiffs’ donations to the DNC or to
Bernie Sanders’s campaign create standing. The act of
donating to an organization does not, of itself, create a
legally protected interest in the organization’s
operations. Pearson v. Garrett-Evangelical Theological
Seminary, Inc., 790 F. Supp. 2d 759, 763 (N.D. Ill.
2011) (“donating money to a charitable fund does not
confer standing to challenge the administration of that
fund”); Orient v. Linus Pauling Inst. of Sci. and Med.,
936 F. Supp. 704, 707 (D. Ariz. 1996) (“Funding
research does not automatically confer a legally
protected interest in that organization’s assets on a
donor”); cf. Leonard v. Campbell, 189 So. 839, 840 (Fla.
1939) (observing that delivery of a gift “divest[s] the
donor of all present control and dominion over [the
gift], absolutely and irrevocably”). Just as donating to
Sanders’s campaign would not entitle the donor to
dictate the campaign’s platform, donating to the DNC
or to Bernie Sanders’s campaign does not entitle
Plaintiffs to challenge the manner in which the DNC
has conducted its affairs. A donor may suffer a
cognizable injury from the violation of an independent
duty, such as if the donation was procured by fraud.
But, for the reasons just explained, Plaintiffs do not
allege the causal connection between their donations
and the DNC’s statements necessary to give them
standing to assert that type of claim.

App. 43
b.
The Plaintiffs who assert the breach of fiduciary
duty cause of action in Count V of the First Amended
Complaint (DE 8) are simply alleged to be “registered
Democrat[s],” residing in nineteen states. Ostensibly
this means that they are registered voters who have
publically declared allegiance with their state’s
Democratic Party, which in turn follows guidelines
established by the DNC. See DE 8, ¶¶ 156-57. They
contend that the DNC owes (and Wasserman Schultz
owed) all registered Democrats a fiduciary duty to
comply with the DNC’s charter, which the DNC and
Wasserman Schultz breached by favoring Hillary
Clinton during the Democratic primaries. Other than
labeling their claim as a common-law tort, these
Plaintiffs have done little to make out a concrete
injury, particularized to them. See DE 48, 7-8. For their
part, the DNC and Wasserman Schultz have
characterized the DNC charter’s promise of
“impartiality and evenhandedness” as a mere political
promise——political rhetoric that is not enforceable in
federal courts. The Court does not accept this
trivialization of the DNC’s governing principles. While
it may be true in the abstract that the DNC has the
right to have its delegates “go into back rooms like they
used to and smoke cigars and pick the candidate that
way,” DE 54, at 36:22-24, the DNC, through its charter,
has committed itself to a higher principle.
Nevertheless, it is apparent that these Plaintiffs cannot
satisfy Lujan’s test, and therefore lack standing to
assert Count V of the First Amended Complaint (DE 8).

App. 44
The Supreme Court has long made clear that “when
the asserted harm is a ‘generalized grievance’ shared in
substantially equal measure by all or a large class of
citizens, that harm alone normally does not warrant
exercise of jurisdiction.” Warth v. Seldin, 422 U.S. 490,
499 (1975) (quoting Schlesinger v. Reservists to Stop
the War, 418 U.S. 208 1974)). To that end, courts have
routinely concluded “that a voter fails to present an
injury-in-fact when the alleged harm is abstract and
widely shared or is only derivative of a harm
experienced by a candidate.” Crist v. Comm’n on
Presidential Debates, 262 F.3d 193, 195 (2d Cir. 2001);
see also Gottlieb v. Fed. Election Comm’n, (concluding
that voters’ “supposed injury to their ‘ability to
influence the political process’” was “too vague to
constitute an injury-in-fact”). For example, in Crist, a
voter sued the sponsor of presidential debates, the
Commission on Presidential Debates (“CPD”),
contending that the CPD’s policy of limiting
participation in its debates to candidates with
demonstrated popularity violated the voter’s First
Amendment Rights. Crist, 262 F.3d at 194. The Second
Circuit held that the voter’s claimed injury was too
abstract and generalized to invoke the court’s
jurisdiction. Id. at 195. Similarly, in Becker v. Fed.
Election Comm’n, several supporters of Ralph Nader
sued the Federal Election Commission (“FEC”),
claiming that FEC regulations permitting corporate
sponsorship of presidential debates corrupted the
political process. 230 F.3d 381, 383-84 (1st Cir. 2000).
Just as in Crist, the Becker Court held that the Nader
supporters’ alleged harm was not sufficiently concrete
or personalized to establish standing. Id. at 389-90.

App. 45
The Plaintiffs asserting Count V of the First
Amended Complaint (DE 8) suffer an analogous
standing deficiency. Their association with the DNC is
voluntary and their relationship to it indirect. The
harm they suffered from the DNC’s alleged bias is, as
their claim makes explicit, undifferentiated from all
other registered Democrats. But it also sweeps more
broadly. In states with open primaries, where voters
unaffiliated with a political party may vote in the
Democratic presidential primary, the harm as between
unaffiliated voters and those affiliated with their
state’s Democratic party is undifferentiated. And under
Plaintiffs’ theory, “the Democratic Party is a custodian
of a fair and impartial election process.” DE 54, at
63:15-17. If the DNC failed to take proper care of the
election process, as Plaintiffs’ theory goes, then their
injury is also undifferentiated from the voting public at
large. Labeling this type of injury as a common-law tort
does nothing to alter the generalized nature of
Plaintiffs’ grievance. For, if the tort harm is failure to
act as a proper “custodian of this country’s democracy,”
DE 54, at 18:8-9, then the measure of Plaintiffs’
damages must be the extent to which the DNC’s
actions corrupted the election process. But just like a
voter’s interest in diverse political discourse (Crist), or
in untainted presidential debates (Becker), “the harm
done to the general public by corruption of the political
process is not a sufficiently concrete, personalized
injury to establish standing.” Becker, 230 F.3d at 389.
The Court also entertains serious doubts about
whether it could redress the harm asserted in Count V.
In addition to damages, Plaintiffs seek declaratory and
injunctive relief that would bind the DNC to the

App. 46
present iteration of its charter. But “a political party’s
determination of the structure which best allows it to
pursue its political goals is protected by the
Constitution.” Eu v. S.F. Cnty. Democratic Cent.
Comm., 489 U.S. 214, 229 (1989) (internal marks
omitted) (quoting Tashjian v. Republican Party of
Conn., 479 U.S. 208, 224 (1986)). So, the choice——and
attendant consequences——between “impartiality and
evenhandedness” and Tammany Hall politics lies in the
province of the DNC, not the judiciary. Cf. O’Brien v.
Brown, 409 U.S. 1, (1972) (“It has been understood
since our national political parties first came into being
as voluntary associations of individuals that the
convention itself is the proper forum for determining
intra-party disputes as to which delegates shall be
seated.”). Grave questions regarding the DNC’s right of
association would undoubtedly arise if this Court were
to enjoin the DNC to a particular manner of
governance. And those same concerns would arise with
respect to any award of damages, which would impose
liability for the DNC’s alleged decision to associate with
a particular standard-bearer in a manner not otherwise
prohibited by law.
c.
Finally, with respect to their negligence claim in
Count VI of the First Amended Complaint (DE 8), the
six named DNC Donor Class Plaintiffs claim they
suffered an injury-in-fact from the data breach of the
DNC’s servers. Two of them, Cridde and Berners-Lee,
donated to the DNC “by check.” DE 8, ¶¶ 108 & 109.
Two others, Lynch and Young, allege they contributed
to the DNC “online,” but do not specify where. DE 8,

App. 47
¶¶ 105 & 106. Davis donated money to the DNC in
“various ways, including online at www.democrats.org.”
DE 8, at ¶ 107. And Cork gave to the DNC but does not
specify where or how. Their cause of action is premised
on a security breach of the DNC’s computer servers,
which Plaintiffs allege was perpetrated by two Russian
hacking groups having “a long history of successfully
targeting sensitive government and industry computer
networks in both the United States and other
countries, often using ‘sophisticated phishing attacks.’”
DE 8, ¶ 164. A computer hacker known as “Guccifer
2.0” claimed credit for the security breach and posted
several documents from the DNC’s servers online.
Those documents include “Excel spreadsheets
containing the names and personal information of
donors to the Democratic Party” and other
“spreadsheets of donors to the DNC . . . containing
personal information such as names, email addresses,
and phone numbers.” DE 8, ¶¶ 164, 165 & 170.
Although these Plaintiffs do not specifically so allege,
their theory is that this security breach of the DNC’s
servers places them at a heightened risk of identity
theft. According to these Plaintiffs, “data breaches
engender injury sufficient to confer Article III standing
based solely on increased risk of identity theft in the
future.” DE 48, at 8.
Although the Eleventh Circuit has held that a party
who has actually suffered identity theft as a result of a
data breach has standing, it has expressly left open the
question whether the mere threat of future identity
theft creates Article III standing. See Resnick v.
AvMed, Inc., 693 F.3d 1317, 1323 n.1 (11th Cir. 2012).
The Supreme Court requires that a “threatened injury

App. 48
must be certainly impeding to constitute an injury in
fact, and that allegations of possible future injury are
not sufficient.” Clapper, 133 S. Ct. at 1147 (quoting
Whitmore v. Arkansas, 495 U.S. 149, 158 (1990))
(internal quotation marks omitted). Theories of
standing that “rel[y] on a highly attenuated chain of
possibilities do[] not satisfy the requirement that
threatened injury must be certainly impending.” Id. To
some measure, three circuits have held that a risk of
future identity theft can constitute an injury in fact.
Galaria v. Nationwide Mut. Ins. Co., 663 F. App’x 384,
387-89 (6th Cir. 2016); Krottner v. Starbucks Corp.,
628 F.3d 1139, 1142-43 (9th Cir. 2010); Pisciotta v. Old
Nat’l Bancorp, 499 F.3d 629, 632-34 (7th Cir. 2007).
Three others have held that it does not. Beck v
McDonald, 848 F.3d 262, 274-76 (4th Cir. 2017); Katz
v. Pershing, 672 F.3d 64, 80 (1st Cir. 2012); Reilly v.
Ceridian Corp., 664 F.3d 38, 40 (3d Cir. 2011). The
cases on both sides of this apparent circuit split are
largely reconcilable, and each proves instructive here.
In Krottner, current and former Starbucks
employees brought suit after a laptop containing the
names, addresses, and Social Security numbers of
97,000 Starbucks employees was stolen from
Starbucks. 628 F.3d at 1140. Following the theft, one of
the employees alleged that someone tried to open a
bank account in his name, but his bank closed the
account before he suffered any loss. Id. at 1142. The
Ninth Circuit held that the employees faced “a credible
threat of harm” from the theft of the laptop containing
their personal information, constituting an injury-infact for purposes of Article III. Id. at 1343.

App. 49
In Pisciotta, the defendant operated an online
marketing service though which individuals could
complete applications for banking services. 499 F.3d at
631. Upon completion of the applications, the
defendant was privy to the individuals’ name, address,
Social Security number, driver’s license number, date
of birth, mother’s maiden name, and credit card and
other financial account numbers. Id. The plaintiffs had
provided this type of personal information to the
defendant and brought suit after the defendant’s online
hosting facility suffered a “sophisticated, intentional
and malicious” security breach. Id. at 631-32. The
plaintiffs did not allege “any completed direct financial
loss to their accounts” or “that they or any other
member of the putative class already had been the
victim of identity theft as a result of the breach.” Id.
(emphasis in original). But the Seventh Circuit
nevertheless concluded that the plaintiffs had
standing, reasoning that “the injury-in-fact
requirement can be satisfied by a threat of future harm
or by an act which harms the plaintiff only by
increasing the risk of future harm that the plaintiff
would have otherwise faced, absent the defendant’s
actions.” Id. at 634.
In Galaria, an insurance company maintained
sensitive personal information of current customers, as
well as prospective customers who had applied for
quotes on insurance products. 663 F. App’x at 386. The
information retained by the insurance company,
including names, dates of birth, marital status, gender,
occupation, employer, Social Security numbers, and
driver’s license numbers, was stolen by computer
hackers. Id. Two plaintiffs brought suit as a result of

App. 50
the breach. Id. The Sixth Circuit held that the
plaintiffs had standing because they alleged that “their
data has already been stolen and is now in the hands
of ill-intentioned criminals.” According to the Sixth
Circuit, “[w]here a data breach targets personal
information, a reasonable inference can be drawn that
the hackers will use the victims’ data for the fraudulent
purposes alleged in Plaintiffs’ complaints.” Id. at 389.
In Beck, a Veterans Affairs Medical Center lost two
sets of patient data. 848 F.3d at 266-67. The first data
set, stored on a laptop that was misplaced or stolen,
held the names, dates of birth, partial Social Security
numbers, and physical descriptions of 7,400 patients.
Id. at 267. The second, kept in four storage boxes that
were misplaced or stolen, contained the names, Social
Security numbers, and medical diagnoses of 2,000
patients. Id. at 268. Three patients whose personal
information was kept on the laptop or in the storage
boxes sued as a result of the Medical Center’s
mishandling of their data. But the Fourth Circuit
rejected as “too speculative” the patients’ argument
that their risk of future harm constituted an injury-infact. Id. at 274. The Fourth Circuit reasoned that the
patients’ theory of standing relied on an “attenuated
chain of possibilities”: that the thief targeted the stolen
items for the information they contained; selected, from
thousands of others, the three patients’ information;
and attempted successfully to use that information to
steal the patients’ identities. Id. at 275. The Fourth
Circuit also concluded that the patients had not
established a “substantial risk” of harm. Id.

App. 51
In Reilly, a payroll processing firm’s systems were
penetrated by a computer hacker, potentially exposing
the personal and financial information of 27,000
employees from 1,900 different companies. 664 F.3d at
40. The nature of the payroll processing firm’s business
meant that it held information regarding its customers’
employees, including their names, addresses, Social
Security numbers, dates of birth, and bank account
information. Id. Two employees whose employers
utilized the payroll processing firm’s services sued the
payroll processing firm based on their belief that they
were at an increased risk of identity theft. Id. The
Third Circuit held that the employees lacked standing
to sue because they failed to allege an injury that was
“certainly impending.” Id. at 42. Like in Beck, the
Third Circuit reasoned that the employees’ theory of
standing rested on a speculative chain of “ifs”——“that
the hacker: (1) read, copied, and understood their
personal information; (2) intends to commit future
criminal acts by misusing the information; and (3) is
able to use such information to the detriment of
Appellants by making unauthorized transactions in
Appellants’ names.” Id.
And in Katz, the defendant sold various financerelated products and services to investment advisers
and broker-dealers, who in turn traded securities on
behalf of their clients. 672 F.3d at 69. One of the
defendant’s services was an online platform that
allowed the advisers and broker-dealers to obtain
research and manage brokerage accounts. Id. If
authorized, end users of that platform were able to
view the clients’ private information, including Social
Security and taxpayer identification numbers. Id. at

App. 52
69-70. Some of the defendant’s employees also had
access to that information. Id. at 70. The plaintiff
maintained a brokerage account with a firm that used
the defendant’s platform. She sued, concerned that the
defendant’s platform left her private information
vulnerable to abuse. Id. The plaintiff did not allege that
any specific data breach occurred; only that many must
have occurred. Id. at 79. The First Circuit concluded
that this claim fell short of establishing an injury-in
fact. Id. Because the plaintiff did not allege that her
information had actually been accessed, the court
reasoned that “[h]er cause of action rests entirely on
the hypothesis that at some point an unauthorized, asyet unidentified, third party might access her data and
attempt to purloin her identity.” Id.
One common thread runs through each of these
cases that is not present here. The defendant in each
had a practice of retaining the plaintiffs’ sensitive
personal information, for one reason or another. In
Krottner and Reilly, it was for purposes of employment;
in Pisciotta and Katz for financial services; and in
Galaria and Beck for insurance or medical purposes.
There is no allegation here that the DNC retains
private information of its donors that is not mandated
to be disclosed to the Federal Election Commission and
thus publically available.4 That is, unlike Krottner,

4

Federal law mandates that political parties report any donation
over $200.00 to the Federal Election Commission, as well as the
donor’s name, mailing address, occupation, name of employer, and
the date of contribution. 11 C.F.R. § 104.8. The Federal Election
Commission in turn makes that information available for public
consumption.

App. 53
Pisciotta, Galaria, Beck, Reilly, and Katz, Plaintiffs do
not allege that the DNC has access to and stores
information from its donors, such as their Social
Security or credit card numbers. Without such an
allegation, the DNC donor Plaintiffs’ claimed threat of
injury is too speculative to support an Article III injuryin-fact. Plaintiffs Young, Lynch, and Davis’ threat of
injury rests on speculation that the DNC, rather than
some third party not before the Court, processed and
stored information from their online donations.
Plaintiffs Cork, Berners-Lee, and Criddle’s threat of
injury is even more attenuated. For Criddle and
Berners-Lee, the Court must speculate that the DNC
copied and stored the account and routing numbers
from their checks onto the servers that were attacked.
And for Cork, the Court must speculate she provided
sensitive personal information to the DNC and that it
was stored on the compromised servers. These “what
ifs” push their alleged injury near sheer conjecture.
And even if the Court assumed that the DNC did
store the named DNC Donor Class Plaintiffs’ sensitive
personal information on the hacked servers, Plaintiffs’
First Amended Complaint (DE 8) still would not make
out an injury that is “certainly impending.” Lujan, 504
U.S. at 565. If Krottner, Pisciotta, Galaria, Beck,
Reilly, and Katz represent a sliding scale——arranged
from least speculative harm to most——this case falls
far closer to Katz than it does Krottner. Unlike
Krottner, none of the DNC donor Plaintiffs have
suggested they were the victim of a failed identity theft
attempt. And unlike Pisciotta and Galaria, these
Plaintiffs do not allege that their personal information
was targeted for the purpose of future criminal misuse.

App. 54
The First Amended Complaint (DE 8) instead paints a
picture that hackers were generally rummaging the
DNC’s files for information pertinent to the
presidential election. The named DNC Donor Plaintiffs
do not allege that hackers targeted their information,
took it, or would be able to make use of it to inflict
some harm in the future. See Clapper, 133 S. Ct. at
1150 (observing courts’ “usual reluctance to endorse
standing theories that rest on speculation about the
decisions of independent actors.”). As a result, this case
mirrors Reilly and Beck, in which the Third and Fourth
Circuits held that the plaintiffs’ claimed injury lacked
the degree of immediacy necessary to establish an
injury-in-fact. Thus, absent an “actual or imminent”
injury, the named DNC Donor Class Plaintiffs lack
standing, and this Court lacks jurisdiction over their
claim in Count VI of the First Amended Complaint (DE
8). Lujan, 504 U.S. at 560.
V. Conclusion
“Federal Courts cannot exercise jurisdiction over
cases where the parties lack standing.” Florida Wildlife
Fed’n, Inc. v. S. Fla. Water Mgmt. Dist., 647 F.3d 1296,
1302 (11th Cir. 2012). Because Plaintiffs do not allege
a causal link between their donations and the DNC’s
statements, they lack standing to assert the fraud-type
claims in Counts I, II, III, and IV of the First Amended
Complaint (DE 8). Their breach of fiduciary duty claim
in Count V relies on a harm far too diffuse to constitute
an injury-in-fact in federal court. And their negligence
claim in Count VI is buffered by too many layers of
speculation and conjecture to create the immediacy of
harm necessary to unlock this Court’s jurisdiction.

App. 55
That being so, Plaintiffs have not “present[ed] a live
case or controversy,” and the Court “must dismiss the
case for lack of subject matter jurisdiction.” Id.
Accordingly, after due consideration, it is
ORDERED AND ADJUDGED as follows:
1. Defendants’ Motion To Dismiss Plaintiffs’ First
Amended Complaint (DE 44) be and the same is hereby
GRANTED; and
2. The above-styled cause be and the same is hereby
DISMISSED without prejudice for lack of subject
matter jurisdiction.
DONE AND ORDERED in Chambers at Fort
Lauderdale, Broward County, Florida, this 25th day of
August, 2017.
/s/ William J. Zloch
WILLIAM J. ZLOCH
Sr. United States District Judge
Copies furnished:
All Counsel of Record

App. 56

APPENDIX D
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 16-61511-CIV-ZLOCH
[Filed August 30, 2016]
___________________________________
CAROL WILDING, et al.,
)
)
Plaintiffs,
)
)
vs.
)
)
DNC SERVICES CORPORATION,
)
d/b/a DEMOCRATIC NATIONAL
)
COMMITTEE, and DEBORAH
)
“DEBBIE” WASSERMAN SCHULTZ, )
)
Defendants.
)
___________________________________ )
ORDER
THIS MATTER is before the Court upon
Defendants’ Motion To Dismiss For Insufficient Service
Of Process Or, In The Alternative, Extend Time To
Answer Or Respond To Complaint (DE 9), which the
Court, by prior Order (DE 25), has construed as a
Motion To Quash Service Of Process. The Court has
carefully reviewed said Motion, the entire court file and
is otherwise fully advised in the premises.

App. 57
I. Background
By the instant Motion (DE 9) and Memorandum
(DE 11), Defendants contend that while the Affidavits
Of Service Of Process (DE Nos. 6 & 7) purport to show
that service of process for both Defendant DNC
Services Corporation, d/b/a Democratic National
Committee (hereinafter “Defendant DNC”), and
Defendant Deborah Wasserman Schultz (hereinafter
“Defendant Wasserman Schultz”) was effected by
serving an individual named Rebecca Christopher,
these Affidavits are incorrect. Defendants provide the
Declaration Of Rebecca Herries In Support Of
Defendants’ Motion To Dismiss For Insufficient Service
Of Process Or, In The Alternative, Extend Time To
Answer Or Respond To Complaint (DE 10) to rebut
Plaintiffs’ Affidavits (DE Nos. 6 & 7). In her
Declaration (DE 10), Rebecca Herries states that she is
employed at Defendant DNC as a special assistant to
the CEO, who, at that time was Amy Dacey, and that
Ms. Herries was the individual Plaintiffs attempted to
serve on July 1, 2016. Defendants argue that Rebecca
Herries is not a proper recipient of service of process
pursuant to Federal Rules of Civil Procedure 4(e) and
4(h). Defendants argue that under no applicable rule
permitting service of process, as set forth below, was
Rebecca Herries authorized to accept service of process
on behalf of either Defendant. The Court reviewed
Rebecca Herries’s Declaration (DE 10) and by separate
Order (DE 25) set an evidentiary hearing for the
purpose of permitting Plaintiffs an opportunity to meet
their burden of demonstrating that service of process
was proper.

App. 58
The Court held the evidentiary Hearing on the
instant Motion To Quash Service Of Process (DE 9) on
August 23, 2016. At said Hearing, the Court heard
testimony from one witness on behalf of Plaintiffs, Mr.
Ricardo Villalba-Cabral, the videographer of Plaintiffs’
process server, Shawn Lucas’s, efforts to serve
Defendants on July 1, 2016. Both Plaintiffs and
Defendants introduced evidence at the Hearing.
Plaintiffs introduced a video recording of the alleged
service of process, a police report documenting the
death of Plaintiffs’ process server, an email pertaining
to the police report, and a corrected Affidavit of Service.
Defendants introduced the original Affidavits Of
Service Of Process (DE Nos. 6 & 7). Additionally,
Plaintiffs sought to introduce into evidence a document
purportedly obtained through WikiLeaks. The Court
finds that regardless of whether this proposed exhibit
was made a part of the record, its ruling herein would
not be affected. Thus, the Court need not reach the
issue of the admissibility of this document at this time.
At the evidentiary Hearing, Plaintiffs argued that
the Court should exercise its discretion and find that
while Rebecca Herries is not an individual listed in any
of the rules concerning service, that by receiving
service on behalf of both Defendants, she exercised
apparent authority sufficient to receive service and
thus give this Court personal jurisdiction over
Defendants.
Defendants maintain that Plaintiffs have not
complied with any applicable rule for service of process
and that Rebecca Herries had no authority to accept
service on behalf of either Defendant.

App. 59
The Court notes for the record that, at the Hearing,
the Court asked Plaintiffs to clarify whether Defendant
Wasserman Schultz is being sued in her corporate or
her individual capacity. Plaintiffs confirmed that she is
being sued in her individual capacity.
II. Analysis
“Service of process is a jurisdictional requirement:
a court lacks jurisdiction over the person of a defendant
when that defendant has not been served.” Hemispherx
Biopharma, Inc. v. Johannesburg Consol. Inv., 553 F.3d
1351, 1360 (11th Cir. 2008) (quoting Pardazi v.
Cullman Med. Ctr., 896 F.2d 1313, 1317 (11th Cir.
1990)). Characterizing a party’s suggestion that it
“should liberally construe the formal requirements for
service under the Federal Rules because [the
defendant] received actual notice but simply chose to
‘ignore the whole thing,’” the Eleventh Circuit found
that notice was not sufficient and that due process
under the Constitution required a “‘basis for the
defendant’s amenability to service of summons on the
defendant.’” Prewitt Enter., Inc. v. Org. of Petroleum
Exporting Countries, 353 F.3d 916, 924-25 (11th Cir.
2003) (quoting Omni Capital Int’l v. Rudolf Wolff & Co.,
484 U.S. 97, 104 (1987)). “And service of process that is
not in ‘substantial compliance’ with the requirements
of the Federal Rules is ineffective to confer personal
jurisdiction over the defendant, even when a defendant
has actual notice of the filing of the suit.” Abele v. City
of Brookville, 237 Fed. Appx. 809, 811 (11th Cir. 2008)
(citing Prewitt, 353 F. 3d at 925).
The Court will begin with the service of process as
to Defendant Wasserman Schultz, in her individual

App. 60
capacity. This issue was not briefed by the Parties, but
instead arose at the Hearing, upon the Court’s
questioning of Plaintiffs. Indeed, the Court posed its
question to Plaintiffs because in neither the Complaint
(DE 1) nor the First Amended Complaint (DE 8) was
there complete clarity on this point. Indeed,
Defendants stated at the Hearing that they thought
Defendant Wasserman Schultz was being sued in her
corporate capacity. Federal Rule of Civil Procedure
Rule 4(e) details “Serving an Individual Within a
Judicial District of the United States,” and it states in
pertinent part, the methods of effecting service:
(1) following state law for serving a summons in
an action brought in courts of general
jurisdiction in the state where the district court
is located or where service is made; or
(2) doing any of the following:
(A) delivering a copy of the summons and of
the complaint to the individual personally;
(B) leaving a copy of each at the individual’s
dwelling or usual place of abode with
someone of suitable age and discretion who
resides there; or
(C) delivering a copy of each to an agent
authorized by appointment or by law to
receive service of process
Fed. R. Civ. P. 4(e)(1)-(2)(A)-(C). From Plaintiffs’
argument at the evidentiary Hearing, it is unclear to
the Court why Plaintiffs believe they should be allowed
to serve Defendant Wasserman Schultz, in her
individual capacity, without complying with any of the
options provided by the Rule governing such service.

App. 61
Certainly, Plaintiffs did not argue that they complied
with 4(e)(2)(A) or (B). They did not serve Defendant
Wasserman Schultz personally. Nor did they attempt
to serve her at her dwelling. In fact, Plaintiffs seemed
to suggest that doing either would not be reasonable.
Plaintiffs also did not explain, or offer any evidence, as
to how Rebecca Herries could be considered “an agent
authorized by appointment or by law” under Fed. R.
Civ. P. 4(e)(2)(C). The Court fails to see how
abandoning the requirements of the Rule would be an
appropriate exercise of its discretion. No evidence thus
presented would permit the Court to find that
Defendant Wasserman Schultz has been properly
served in her individual capacity. Thus, the dictates of
Rule 4(e) require the Court to quash service as to
Defendant Wasserman Schultz, in her individual
capacity.
Federal Rule of Civil Procedure 4 includes two
pertinent sections the Court must consider in
determining whether service was proper with respect
to Defendant DNC. Rule 4(e), as detailed above,
discusses service on an individual and Rule 4(h)
discusses service on a corporation. Rule 4(h) also
incorporates a portion of 4(e) which states that service
may also be made on a corporation by “following state
law for serving a summons in an action brought in
courts of general jurisdiction in the state where the
district court is located or where service is made.” Fed.
R. Civ. P. 4(e)(1). In this instance, therefore, service
could be made on Defendant DNC, a corporate
defendant, by complying with Rule 4(h), or by
complying with the service of process rules of the state
of Florida, or by complying with the service of process

App. 62
rules for the District of Columbia, where service was
made.
First, Federal Rule of Civil Procedure 4(h) notes
that a corporation may be served, in accord with Fed.
R. Civ. P. 4(e)(1), as noted above, or
by delivering a copy of the summons and of the
complaint to an officer, a managing or general
agent, or any other agent authorized by
appointment or by law to receive service of
process and–if the agent is one authorized by
statute and the statute so requires–by also
mailing a copy of each to the defendant
Fed. R. Civ. P. 4(h)(B). Turning next to Florida law for
service, there is no suggestion that, under Fla. Stat.
§ 48.091, Rebecca Herries was Defendant DNC’s
registered agent, as a Florida corporation would be
required to designate. Thus, Plaintiffs would be
traveling under Fla. Stat. § 48.081, which describes
service on a corporation. For any private corporation,
domestic or foreign, this statute lists a hierarchy of
persons who may be served, depending on the absence
of persons in the preceding section:
(a) On the president or vice president, or other
head of the corporation;
(b) In the absence of any person described in
paragraph (a), on the cashier, treasurer,
secretary, or general manager;
(c) In the absence of any person described in
paragraph (a) or paragraph (b), on any director;
or
(d) In the absence of any person described in

App. 63
paragraph (a) , paragraph (b), paragraph (c), on
any officer or business agent residing in the
state.
Fla. Stat. § 48.081(1)(a)-(d) (emphasis added). In Dade
Erection Serv., Inc. v. Sims Crane Serv., Inc., the court
stated that “Sections 48.081 and 48.091 provide the
exclusive means of effecting service of process on an
active corporation, and these provisions must be
strictly construed.” 379 So. 2d 423, 425 (Fla. Dist. Ct.
App. 1980). Finally, Plaintiffs could choose to serve
under the District of Columbia’s rules, but this rule
closely tracks Fed. R. Civ. P. 4 (h), and suggests no
alternative path. See D.C. Super. Ct. Civ. R. 4(h).
Plaintiffs proffered no evidence demonstrating that
Rebecca Herries is actually an appropriate recipient of
service under any relevant rule. Certainly, she is not
“an officer, a managing or general agent, or any other
agent authorized by appointment or by law to receive
service of process.” Fed. R. Civ. P. 4(h)(B). Instead, the
Court would characterize Plaintiffs’ argument as being
one of apparent authority. The video now in evidence
as Plaintiff’s Exhibit 1 shows that, in response to
Plaintiffs’ process server, Shawn Lucas’s, request to
speak to anyone on a list he provided, Rebecca Herries
eventually met Mr. Lucas and accepted the papers he
handed to her. The evidence is uncontroverted that Mr.
Lucas did not ask Ms. Herries for her last name or her
position or for any identification whatsoever. Indeed,
he evinced his lack of knowledge as to her identity
when he filed his Affidavits (DE Nos. 6 & 7) stating
that he served a Rebecca Christopher, instead of Ms.
Herries. However, the evidence is also uncontroverted

App. 64
that Ms. Herries did not refuse to accept the papers
Mr. Lucas handed to her and at no point during Mr.
Lucas’s attempt to serve her did she indicate to him
that she lacked authority to accept service of process on
behalf of either Defendant. To the contrary, when
handed the papers, she said, “perfect.”
Based on the evidence presented, the Court cannot
find that Ms. Herries was the correct recipient of
service of process for either Defendant under any
applicable rule. The Court will, therefore, also quash
service as to Defendant DNC. While Plaintiff’s process
server did not fulfill his obligations in satisfying
himself as to whom he was attempting to serve, the
Court cautions the Defendant DNC about subsequent
attempts by Plaintiffs to effect service. No evidence at
the Hearing explains Ms. Herries’s conduct; however,
the Court hereby advises Defendant DNC that it will
not tolerate the conduct in which Defendant DNC
engaged in this instance.
Accordingly, after due consideration, it is
ORDERED AND ADJUDGED as follows:
1. Defendants’ Motion To Dismiss For Insufficient
Service Of Process Or, In The Alternative, Extend Time
To Answer Or Respond To Complaint (DE 9), which the
Court, by its Order (DE 25) has construed as a Motion
To Quash Service Of Process, be and the same is
hereby GRANTED;
2. Service of Process as to Defendant DNC Services
Corporation, d/b/a Democratic National Committee,
and Defendant Deborah Wasserman Schultz be and the
same is hereby QUASHED; and

App. 65
3. Plaintiffs be and the same are hereby ordered to
serve Defendant DNC Services Corporation, d/b/a
Democratic National Committee, and Defendant
Deborah Wasserman Schultz within the time
prescribed by law.
DONE AND ORDERED in Chambers at Fort
Lauderdale, Broward County, Florida, this 29th of
August, 2016.
/s/William J. Zloch
WILLIAM J. ZLOCH
United States District Judge
Copies furnished:
All Counsel and Parties of Record

App. 66

APPENDIX E

THE CHARTER
&
THE BYLAWS
OF THE DEMOCRATIC PARTY
OF THE UNITED STATES

As Amended by
The Democratic National Committee
August 28, 2015

App. 67
CONTENTS
CHARTER OF THE DEMOCRATIC PARTY
OF THE UNITED STATES
1

PREAMBLE

1

ARTICLE ONE. . . . . . . . . The Democratic Party
of the United States
of America

2

ARTICLE TWO . . . . . . . . National Convention

3

ARTICLE THREE . . . . . . Democratic National
Committee

5

ARTICLE FOUR . . . . . . . Executive Committee

5

ARTICLE FIVE . . . . . . . . National Chairperson

6

ARTICLE SIX. . . . . . . . . . Party Conference

6

ARTICLE SEVEN . . . . . . National Finance
Organizations

6

ARTICLE EIGHT. . . . . . . Full Participation

7

ARTICLE NINE . . . . . . . . General Provisions

9

ARTICLE TEN . . . . . . . . . Amendments,
Bylaws, and Rules

9

RESOLUTION OF
ADOPTION

App. 68
BYLAWS
Adopted Pursuant to the Charter of the Democratic
Party of the United States
1

ARTICLE ONE. . . . . . . . . Democratic National
Convention

2

ARTICLE TWO . . . . . . . . Democratic National
Committee

3

ARTICLE THREE . . . . . . Executive Committee

5

ARTICLE FOUR . . . . . . . National Finance
Organizations

5

ARTICLE FIVE . . . . . . . . Amendments

App. 69
CHARTER
CHARTER
CHARTER OF THE DEMOCRATIC PARTY
OF THE UNITED STATES
PREAMBLE
We, the Democrats of the United States of America,
united in common purpose, hereby rededicate ourselves
to the principles which have historically sustained our
Party. Recognizing that the vitality of the Nation’s
political institutions has been the foundation of its
enduring strength, we acknowledge that a political
party which wishes to lead must listen to those it
would lead, a party which asks for the people’s trust
must prove that it trusts the people and a party which
hopes to call forth the best the Nation can achieve must
embody the best of the Nation’s heritage and
traditions.
What we seek for our Nation, we hope for all people:
individual freedom in the framework of a just society,
political freedom in the framework of meaningful
participation by all citizens. Bound by the United
States Constitution, aware that a party must be
responsive to be worthy of responsibility, we pledge
ourselves to open, honest endeavor and to the conduct
of public affairs in a manner worthy of a society of free
people.
Under God, and for these ends and upon these
principles, we do establish and adopt this Charter of
the Democratic Party of the United States of America.

App. 70
ARTICLE ONE
The Democratic Party of the United States
of America
The Democratic Party of the United States of
America shall:
Section 1.
Nominate and assist in the election of
Democratic candidates for the offices of President and
Vice President of the United States;
Section 2.
policy;

Adopt and promote statements of

Section 3.
Assist state and local Democratic Party
organizations in the election of their candidates and
the education of their voters;
Section 4. Establish standards and rules of
procedure to afford all members of the Democratic
Party full, timely and equal opportunities to participate
in decisions concerning the selection of candidates, the
formulation of policy, and the conduct of other Party
affairs, without prejudice on the basis of sex, race, age
(if of voting age), color, creed, national origin, religion,
economic status, gender identity, sexual orientation,
gender identity, ethnic identity or physical disability,
and further, to promote fair campaign practices and the
fair adjudication of disputes. Accordingly, the
scheduling of Democratic Party affairs at all levels
shall consider the presence of any religious minorities
of significant numbers of concentration whose level of
participation would be affected;

App. 71
Section 5.
Raise and disburse monies needed for
the successful operation of the Democratic Party;
Section 6.
Work with Democratic public officials
at all levels to achieve the objectives of the Democratic
Party; and
Section 7. Encourage and support codes of
political ethics that embody substantive rules of ethical
guidance for public officials and employees in federal,
state and local governments, to assure that public
officials shall at all times conduct themselves in a
manner that reflects creditably upon the office they
serve, shall not use their office to gain special
privileges and benefits and shall refrain from acting in
their official capacities when their independence of
judgement would be adversely affected by personal
interest or duties.
ARTICLE TWO
National Convention
Section 1. The Democratic Party shall assemble
in National Convention in each year in which an
election for office of President of the United States is
held.
Section 2. The National Convention shall be the
highest authority of the Democratic Party, subject to
the provisions of this Charter. The National
Convention shall recognize the state and other Parties
entitled to participate in the conduct of the national
affairs of the Democratic Party, including its
conventions, conferences and committees. State Party
rules or state laws relating to the election of delegates

App. 72
to the National Convention shall be observed unless in
conflict with this Charter and other provisions adopted
pursuant to authority of the Charter, including the
resolutions or other actions of the National Convention.
In the event of such conflict with state laws, state
Parties shall be required to take provable positive steps
to bring such laws into conformity and to carry out
such other measures as may be required by the
National Convention or the Democratic National
Committee.
Section 3. The National Convention shall
nominate a candidate for the office of President of the
United States, nominate a candidate for the office of
Vice President of the United States, adopt a platform
and act upon such other matters as it deems
appropriate.
Section 4. The National Convention shall be
composed of delegates equally divided between men
and women. The delegates shall be chosen through
processes which:
(a)
assure all Democratic voters full, timely
and equal opportunity to participate and include
affirmative action programs toward that end,
(b)
assure that delegations fairly reflect the
division of preferences expressed by those who
participate in the Presidential nominating process,
(c)
exclude the use of the unit rule at any level,
(d)
do not deny participation for failure to pay
a cost, fee or poll tax,
(e)
allow participation in good faith by all
voters who are Democrats and, to the extent
determined by a State Party to be in the interests of

App. 73
the Democratic Party in that State, by voters who are
not registered or affiliated with any party; and
(f)
except with respect to persons referred to
in Section 5(b) of this Article, begin within the calendar
year of the Convention provided, however, that fairly
apportioned and openly selected state Party
Committees, elected no earlier than the date of the
previous presidential election, shall not be precluded
from selecting such portion of their respective state
delegations, according to the standards provided in this
Charter and the Bylaws and the Delegate Selection
Rules, as may be specifically authorized by the
Democratic National Committee in the Call to the
Convention,
(g)
prohibit unpledged and uncommitted
delegates, except delegates or alternates expressing an
uncommitted preference shall be permitted to be
elected at the district level, in which event, if such
preference meets the applicable threshold and qualifies
for at-large or similar delegates or alternates, such atlarge or similar delegates or alternates shall be
allocated to that uncommitted preference as if it were
a presidential candidate,
(h)
notwithstanding any provision to the
contrary in this Section:
(i) provide for all of the members of the
Democratic National Committee to serve as unpledged
delegates,
(ii) permit unpledged delegates consisting of:
1) the President and Vice President of the
United States, if Democrats,
2) the Democratic members of the United
States Senate and the Democratic members of the
House of Representatives,

App. 74
3) the Democratic Governors,
4) former Democratic Presidents and Vice
Presidents of the United States,
5) former Democratic Majority and
Minority Leaders of the United States Senate,
6) former Democratic Speakers and
Minority Leaders of the United States House of
Representatives,
7) former Chairs of the Democratic
National Committee,
8) such delegates shall not be permitted
to have alternates and such delegates shall constitute
an exception to Subsection (b) of this Section 4.
Section 5. The delegate vote allocable to each
state shall be determined as provided in the Bylaws,
consistent with the formula:
(a)
giving equal weight to population, which
may be measured by electoral vote, and to the
Democratic vote in elections for office of the President;
and
(b)
giving such additional delegate votes as
may be specifically designated by the Democratic
National Committee in the Call to the Convention,
subject to such conditions as may be set forth by the
Democratic National Committee in said Call, for the
purpose of providing incentives for scheduling the
event constituting the first determining stage in the
presidential nominating process in each state later in
the year of the Convention than such event would
otherwise be scheduled in the absence of such
incentive; and
(c)
which shall also provide additional
delegate positions to members of the Democratic

App. 75
National Committee; and
(d)
which may also provide additional
delegate positions to Democratic elected public officials
specifically designated by the Democratic National
Committee in the Call to the Convention, subject to the
provisions of Section 4.
ARTICLE THREE
Democratic National Committee
Section 1. The Democratic National Committee
shall have general responsibility for the affairs of the
Democratic Party between National Conventions,
subject to the provisions of this Charter and to the
resolutions or other actions of the National Convention.
This responsibility shall include:
(a)
issuing the Call to the National Convention;
(b)
conducting the Party’s Presidential campaign;
(c)
filling vacancies in the nominations for the
office of President and Vice President;
(d)
formulating and disseminating statements
of Party policy;
(e)
providing for the election or appointment
of a Chairperson, five Vice Chairpersons, one of whom
shall be the President of the Association of State
Democratic Chairs and one of whom shall be the Vice
Chairperson for Civic Engagement and Voter
Participation, a Treasurer, a Secretary, a National
Finance Chair and other appropriate officers of the
National Committee, who with the exception of the
Chairperson and the President of the Association of
State Democratic Chairs, shall be as equally divided as
practicable according to gender, and for the filling of
vacancies, all in accordance with Rules of Procedure

App. 76
adopted by the Democratic National Committee; and
(f)
all other actions necessary or appropriate
in order to carry out the provisions of this Charter and
the objectives of the Democratic Party.
Section 2. The Democratic National Committee
shall be composed of:
(a)
the Chairperson and the highest ranking
officer of the opposite sex of each recognized state
Democratic Party and of the Democratic Parties of
Guam, the Virgin Islands, American Samoa and the
Northern Mariana Islands;
(b)
two hundred additional members
apportioned to the states on the basis set forth in
Article Two, Section 5(a) of the Charter, consistent
with the full participation goals of Sections 3 and 4 of
Article Eight of the Charter; provided that each state
shall have at least two such additional members;
(c)
two additional members, consisting of one
national committeeman and one national
committeewoman, from each of Guam, the Virgin
Islands, American Samoa and the Northern Mariana
Islands;
(d)
the Chairperson of the Democratic
Governors’ Association and two additional governors,
of whom, at least one shall be of the opposite sex of the
Chairperson, as selected by the Association;
(e)
the Democratic Leader in the United
States Senate and the Democratic Leader in the United
States House of Representatives and one additional
member of each body, who shall be of the opposite sex
of, and appointed by, the respective leaders;
(f)
the
Chairperson,
the
five Vice
Chairpersons, the National Finance Chair, the

App. 77
Treasurer, and the Secretary of the DNC;
(g)
the Chairperson of the National
Conference of Democratic Mayors and two additional
mayors, at least one of whom shall be of the opposite
sex of the Chairperson, as selected by the Conference;
(h)
the President of the Young Democrats of
America and two additional members, at least one of
whom shall be of the opposite sex as the President, as
selected by the organization biennially in convention
assembled;
(i)
the Chairperson of the Democratic County
Officials and two additional county officials, at least
one of whom shall be of the opposite sex as the
Chairperson, as selected by the organization;
(j)
the Chairperson of the Democratic
Legislative Campaign Committee and two additional
state legislators, at least one of whom shall be of the
opposite sex as the Chairperson, as selected by the Committee;
(k)
the Chairperson of the National
Democratic Municipal Officials Conference and two
additional municipal officials, at least one of whom
shall be of the opposite sex as the Chairperson, as
selected by the Conference;
(l)
the President of the National Federation
of Democratic Women and two additional members
selected by the Federation;
(m) the President of the College Democrats of
America and the Vice President, who shall be of the
opposite sex, as elected by the organization annually;
(n)
the Chairperson of the National
Association of Democratic State Treasurers and the
Vice Chair who shall be of the opposite sex, as selected
by the Association;
(o)
the Chairperson of the National

App. 78
Association of Democratic Lieutenant Governors and
the Vice Chair who shall be of the opposite sex, as
selected by the Association;
(p)
the Chairperson of the Democratic
Association of Secretaries of State and the Vice Chair
who shall be of the opposite sex, as selected by the
Association;
(q)
the Chairperson of the Democratic
Attorneys General Association and one additional
attorney general who shall be of the opposite sex of the
Chairperson, as selected by the Association;
(r)
the Chairperson of the National
Democratic Ethnic Coordinating Committee, who is not
otherwise a member of the Democratic National
Committee and one additional member, who shall be of
the opposite sex, as selected by the Coordinating Committee;
(s)
the Chairperson of the National
Democratic Seniors Coordinating Council, who is not
otherwise a member of the Democratic National
Committee and one additional member, who shall be of
the opposite sex, as selected by the Coordinating Council;
(t)
additional members as provided in Article
Nine of this Charter. No more than seventy-five
additional members of the Democratic National
Committee may be added by the foregoing members.
Section 3. Members of the Democratic National
Committee apportioned to the states and those
provided for in Article Nine who are not otherwise
members by virtue of Party office, shall be selected by
each state Democratic Party in accordance with
standards as to participation established in the Bylaws
of the Democratic Party for terms commencing on the
day the National Convention adjourns and terminating

App. 79
on the day the next Convention adjourns. Such
members shall be selected during the calendar year in
which a National Convention is held, through processes
which assure full, timely and equal opportunity to
participate. Vacancies shall be filled by the state party
as provided in the Bylaws. The members of the
National Committee from each state shall be divided as
equally as practicable between committeemen and
committeewomen. Members of the Democratic National
Committee who serve by virtue of holding public or
Party office shall serve on the Committee only during
their terms in such office. Members of the Democratic
National Committee added by the other members shall
serve a term that runs coterminously with the
Chairperson of the Democratic National Committee,
through the election of the new Chairperson, and until
their successors are chosen; members in this category
shall have the right to vote for the new Chairperson.
Members of the Democratic National Committee who
serve by virtue of holding state Party office shall be
selected by such parties in accordance with standards
as to participation established in Bylaws.
Section 4.
The Bylaws may provide for removal of
members of the Democratic National Committee for
cause by a two-thirds vote of the National Committee
and may also require continued residence in the
jurisdiction represented by the member and affirmative
support for the Democratic Presidential and Vice
Presidential nominees as a condition of continued
membership thereon. The Bylaws may further provide
for a minimum level of attendance at National
Committee meetings for Democratic National
Committee members. The Bylaws may establish that

App. 80
any member of the Democratic National Committee
who misses three consecutive meetings of the
Democratic National Committee has failed to meet the
minimum level of attendance and is deemed to have
resigned from the Democratic National Committee.
Section 5. The Democratic National Committee
shall meet at least once each year. Meetings shall be
called by the Chairperson, by the Executive Committee
of the Democratic National Committee, or by written
request of no fewer than one-fourth of the members of
the Democratic National Committee.
ARTICLE FOUR
Executive Committee
Section 1.
There shall be an Executive Committee
of the Democratic National Committee, which shall be
responsible for the conduct of the affairs of the
Democratic Party subject to this Charter, the National
Convention and the Democratic National Committee.
Section 2. The Executive Committee shall be
elected by and serve at the pleasure of the members of
the Democratic National Committee. The size,
composition and term of office shall be determined by
the Democratic National Committee, provided that, the
number of members elected by the regional caucuses of
members of the Democratic National Committee shall
be no fewer than twenty-four less than the number
selected by other means.
Section 3. The Executive Committee shall meet
at least four times each year. Meetings shall be called
by the Chairperson or by written request of no fewer

App. 81
than one-fourth of its members. The Executive
Committee shall keep a record of its proceedings which
shall be available to the public.
ARTICLE FIVE
National Chairperson
Section 1. The National Chairperson of the
Democratic Party shall carry out the programs and
policies of the National Convention and the Democratic
National Committee.
Section 2. The National Chairperson, the five
Vice Chairpersons, the National Finance Chair, the
Treasurer, and the Secretary, shall be elected:
(a)
at a meeting of the Democratic National
Committee held after the succeeding presidential
election and prior to March 1 next, and,
(b)
whenever a vacancy occurs. The National
Chairperson shall be elected and may be removed by a
majority vote of the Democratic National Committee,
and each term shall expire upon the election for the
following term.
Section 3. The National Chairperson shall
preside over meetings of the Democratic National
Committee and of the Executive Committee. In the
event of a vacancy in the office of the National
Chairperson, the designated Vice Chair as provided for
in Article Two, Section 12(b) of the Bylaws, or the next
highest ranking officer of the National Committee
present at the meeting shall preside.
Section 4.
The National Chairperson shall serve
full time and shall receive such compensation as may

App. 82
be determined by agreement between the Chairperson
and the Democratic National Committee. In the
conduct and management of the affairs and procedures
of the Democratic National Committee, particularly as
they apply to the preparation and conduct of the
Presidential nomination process, the Chairperson shall
exercise impartiality and evenhandedness as between
the Presidential candidates and campaigns. The
Chairperson shall be responsible for ensuring that the
national officers and staff of the Democratic National
Committee maintain impartiality and evenhandedness
during the Democratic Party Presidential nominating
process.
ARTICLE SIX
Party Conference
The Democratic Party may hold a National Party
Conference between National Conventions. The nature,
agenda, composition, time and place of the Party
Conference shall be determined by the Democratic
National Committee.
ARTICLE SEVEN
National Finance Organizations
Section 1. The Democratic National Committee
shall establish National Finance Organizations which
shall have general responsibility for the finances of the
Democratic Party. These National Finance
Organizations shall raise funds to support the
Democratic Party and shall advise and assist state
Democratic Parties and candidates in securing funds
for their purposes.

App. 83
Section 2. The National Finance Chair shall be
elected or approved by the Democratic National
Committee.
ARTICLE EIGHT
Full Participation
Section 1. The Democratic Party of the United
States shall be open to all who desire to support the
Party and who wish to be known as Democrats.
Section 2. Discrimination in the conduct of
Democratic Party affairs on the basis of sex, race, age
(if of voting age), color, creed, national origin, religion,
economic status, sexual orientation, gender identity,
ethnic identity or physical disability is prohibited, to
the end that the Democratic Party at all levels be an
open party.
Section 3. To encourage full participation by all
Democrats, with particular concern for minority
groups, Blacks, Native Americans, Asian/Pacifics,
Hispanics, women and youth in the delegate selection
process and in all Party affairs, as defined in the
Bylaws, the National and State Democratic Parties
shall adopt and implement an affirmative action
program which provides for representation as nearly as
practicable of the aforementioned groups, as indicated
by their presence in the Democratic electorate. This
program shall include specific goals and timetables to
achieve this purpose.
Section 4. This goal shall not be accomplished
either directly or indirectly by the national or state
Democratic Parties’ imposition of mandatory quotas at

App. 84
any level of the delegate selection process or in any
other Party affairs, as defined in the Bylaws; however,
representation as nearly as practicable of minority
groups, Blacks, Native Americans, Asian/Pacifics,
Hispanics, women and youth, as indicated by their
presence in the Democratic electorate, as provided in
this Article, shall not be deemed a quota.
Section 5. Performance under an approved
affirmative action program and composition of the
Convention delegation shall be considered relevant
evidence in the challenge of any state delegation. If a
state Party has adopted and implemented an approved
and monitored affirmative action program, the Party
shall not be subject to challenge based solely on
delegate composition or solely on primary results.
Section 6. Notwithstanding Section 5 above,
equal division at any level of delegate or committee
positions between delegate men and delegate women or
committeemen and committeewomen shall not
constitute a violation of any provision thereof.
ARTICLE NINE
General Provisions
Section 1. D e m o c r a t i c
Party means the
Democratic Party of the United States of America.
Section 2.
The Bylaws shall provide for states in
which the Democratic nominee for President or electors
committed to the nominee did not appear on the ballot
in elections used for apportionment formulae.

App. 85
Section 3. For the purposes of this Charter, the
District of Columbia shall be treated as a state
containing the appropriate number of Congressional
Districts.
Section 4. For the purposes of this Charter,
Puerto Rico shall be treated as a state containing the
appropriate number of Congressional Districts.
Democratic Party
Section 5. R e c o g n i z e d
organizations in areas not entitled to vote in
Presidential elections may elect such voting delegates
to National Conventions as the Democratic National
Committee provides in the Call to the Convention.
Section 6. Democrats Abroad shall have four
votes on the Democratic National Committee, which
votes shall be shared by the Chairperson, the highest
ranking officer of the opposite sex, three National
Committeemen and three National Committeewomen
except as may otherwise be provided by the Bylaws.
Section 7. The Bylaws shall provide for regional
organizations of the Party.
Section 8.
To assure that the Democratic nominee
for the office of President of the United States is
selected by a fair and equitable process, the Democratic
National Committee may adopt such statements of
policy as it deems appropriate with respect to the
timing of Presidential nominating processes and shall
work with state Parties to accomplish the objectives of
such statements.
Section 9. The Democratic National Committee
shall maintain and publish a code of fair campaign

App. 86
practices, which shall be recommended for observance
by all candidates campaigning as Democrats.
Section 10. The Democratic Party shall not require
a delegate to a Party convention or caucus to cast a
vote contrary to his or her expressed preference.
Section 11. Voting by proxy shall not be permitted
at the National Convention. Voting by proxy shall
otherwise be permitted in Democratic Party affairs
only as provided in the Bylaws of the Democratic Party.
Section 12. All meetings of the Democratic
National Committee, the Executive Committee, and all
other official Party committees, commissions and
bodies shall be open to the public, and votes shall not
be taken by secret ballot.
Section 13. The Democratic National Committee
shall prepare and make available to the public an
annual report concerning the financial affairs of the
Democratic Party.
Section 14. In the absence of other provisions,
Robert’s Rules of Order (as most recently revised) shall
govern the conduct of all Democratic Party meetings.
Section 15. The text of the Charter and the
Bylaws, or portions thereof, shall be made available in
other languages as needed upon reasonable request.
Section 16. Except as otherwise provided herein,
the membership of the Democratic National
Committee, the Executive Committee, Democratic state
central committees, and all national official Party
Conventions, committees, commissions, and like bodies

App. 87
shall be as equally divided as practicable according to
gender. State Parties shall take provable positive steps
to achieve legislative changes to bring the law into
compliance with this provision wherever this provision
conflicts with state statutes.
Section 17. Democratic Party Credo.
We Democrats are the oldest political party in
America and the youngest in spirit. We will remain so,
because we enjoy the challenge of government. Time
and again, for almost two centuries, the Democratic
Party has made government work -- to build and
defend a nation, to encourage commerce, to educate our
children, to promote equal opportunity, to advance
science and industry, to support the arts and
humanities, to restore the land, to develop and
conserve our human and natural resources, to preserve
and enhance our built environment, to relieve poverty,
to explore space. We have reached difficult and vital
goals.
We recognize that the capacity of government is
limited but we regard democratic government as a force
for good and a source of hope.
At the heart of our party lies a fundamental
conviction, that Americans must not only be free, but
they must live in a fair society.
We believe it is the responsibility of government to
help us achieve this fair society.
• a society where the elderly and the disabled can
lead lives of dignity and where Social Security remains
an unshakable commitment;
• a society where all people can find jobs in a
growing full-employment economy;

App. 88
• a society where all workers are guaranteed
without question the legal right to join unions of their
own choosing and to bargain collectively for decent
wages and conditions of employment;
• a society where taxes are clearly based on ability
to pay;
• a society where the equal rights of women are
guaranteed in the Constitution;
• a society where the civil rights of minorities are
fully secured and where no one is denied the
opportunity for a better life;
• a society where both public and private
discrimination based upon race, sex, age, color, creed,
national origin, religion, ethnic identity, sexual
orientation, gender identity, economic status,
philosophical persuasion or physical disability are
condemned and where our government moves
aggressively to end such discrimination through lawful
means;
• a society where we recognize that the
strengthening of the family and the protection of
children are essential to the health of the nation;
• a society where a sound education, proper
nutrition, quality medical care, affordable housing, safe
streets and a healthy environment are possible for
every citizen;
• a society where the livelihoods of our family
farmers are as stable as the values they instill in the
American character;
• a society where a strong national defense is a
common effort, where promoting human rights is a
basic value of our foreign policy, and where we ensure
that future by ending the nuclear arms race.
This is our purpose and our promise.

App. 89
ARTICLE TEN
Amendments, Bylaws, and Rules
Section 1. This Charter may be amended by a
vote of a majority of all of the delegates to the National
Convention, provided that no such amendment shall be
effective unless and until it is subsequently ratified by
a vote of the majority of the entire membership of the
Democratic National Committee. This Charter may
also be amended by a vote of two-thirds of the entire
membership of the Democratic National Committee. At
least thirty days written notice shall be given of any
National Committee meeting at which action will be
taken pursuant to this Section, and any proposed
amendment shall be given to all members of the
National Committee and shall be released to the
national news media. This Charter may also be
amended by a vote of two-thirds of the entire
membership of any Democratic Party Conference called
under the authority of this Charter for such purpose.
Section 2. Bylaws of the Democratic Party shall
be adopted to provide for the governance of the affairs
of the Democratic Party in matters not provided for in
this Charter. Bylaws may be adopted or amended by a
majority vote of:
(a)
the National Convention; or
(b)
the Democratic National Committee
provided that thirty days written notice of any
proposed Bylaw or amendment has been given to all
members of the National Committee.
Unless adopted in the form of an amendment to this
Charter or otherwise designated, any resolution

App. 90
adopted by the National Convention relating to the
governance of the Party shall be considered a Bylaw.
Section 3. Each official body of the Democratic
Party created under the authority of this Charter shall
adopt and conduct its affairs in accordance with
written rules, which rules shall be consistent with this
Charter, the Bylaws and other provisions adopted
pursuant to authority of the Charter, including
resolutions or other actions of the National Convention.
The Democratic National Committee shall maintain
copies of all such rules and shall make them available
upon request.
Section 4. Each recognized state Democratic
Party shall adopt and conduct its affairs in accordance
with written rules. Copies of such rules and of any
changes or amendments thereto shall be filed with the
Democratic National Committee within thirty days
following adoption.
RESOLUTION OF ADOPTION
Section 1. The Democratic Party of the United
States of America, assembled in a Conference on
Democratic Party Organization and Policy pursuant to
resolution adopted by the 1972 Democratic National
Convention and the Call to the Conference hereby
adopts for the governance of the Party the Charter
attached hereto.

App. 91
BYLAWS
Adopted Pursuant to the Charter of the Democratic
Party of the United States
ARTICLE ONE
Democratic National Convention
Section 1.
The National Convention is the highest
authority of the Democratic Party, subject to the
provisions of the Charter.
Section 2. The National Convention shall adopt
permanent rules governing the conduct of its business
at the beginning of each Convention, and until the
adoption of such permanent rules, the Convention and
the activities attendant thereto shall be governed by
temporary rules set forth in the Call to the National
Convention.
Section 3.
Delegates to the National Convention
shall be allocated in the Call to the Convention
consistent with the Charter.
ARTICLE TWO
Democratic National Committee
Section 1. Duties and Powers. The Democratic
National Committee shall have general responsibility
for the affairs of the Democratic Party between
National Conventions, subject to the provisions of the
Charter and to the resolutions or other official actions
of the National Convention. This responsibility shall
include, but not be limited to:
(a)
Issuing the Call to the National Convention;

App. 92
(b)
Conducting the Party’s Presidential Campaign;
(c)
Filling vacancies in the nominations for
the office of the President and Vice President;
(d)
Assisting state and local Democratic Party
organizations in the election of their candidates and
the education of their voters;
(e)
Formulating
and disseminating
statements of Party policy, promoting programs for the
systematic study of public policy issues, through
participation of members of the Democratic National
Committee and through specific projects administered
under the authority of the Chairperson of the
Democratic National Committee;
(f)
Providing for the election or appointment
of a Chairperson, five Vice Chairpersons, one of whom
shall be the President of the Association of State
Democratic Chairs and one of whom shall be Vice
Chairperson for Voter Registration and Participation,
a Treasurer, a National Finance Chair, a Secretary and
other appropriate officers of the National Committee,
who, with the exception of the Chairperson and
President of the Association of State Democratic
Chairs, shall be as equally divided as practicable
according to gender, and for the filling of vacancies, all
in accordance with Rules of Procedure adopted by the
Democratic National Committee;
(g)
Establishing and maintaining National
Headquarters of the Party;
(h)
Promoting and encouraging Party
activities at every level, including but not limited to the
following:
(i)
promoting
and
encouraging
implementation of all Party mandates;
(ii)
the fulfillment by the Party of its

App. 93
platform pledge and other commitments;
(iii) establishment and support of an
adequate system of political research;
(iv) the preparation, distribution and
communication of Party information to its members
and the general public;
(v) the development and maintenance of a
program of public relations for the Party; and
(vi) development of a program for the
coordination of Party committees, organizations,
groups, public officials and members.
(i)
Devising and executing ways and means
of financing activities of the Party;
(j)
Taking such other action as may be
necessary and proper to carry out the provisions of the
Charter, these Bylaws, the resolutions and other
official actions to achieve the objectives of the Party
and the Convention; and
(k)
Approval of the budget of the Democratic
National Committee.
Section 2.
Membership. The Democratic National
Committee shall be composed of:
(a)
The Chairperson and the highest ranking
officer of the opposite sex of each recognized State
Democratic Party as defined by Article Nine of the
Charter and of the Democratic Parties of Guam, the
Virgin Islands, American Samoa and the Northern
Mariana Islands;
(b)
Two hundred additional members
apportioned to the states on the basis set forth in
Article Two, Section 5(a) of the Charter, provided that
each state shall have at least two additional members;
(c)
Two additional members, consisting of one

App. 94
national committeeman and one national
committeewoman, from each of Guam, the Virgin
Islands, American Samoa and the Northern Mariana
Islands;
(d)
The Chairperson of the Democratic
Governors’ Association and two additional governors,
of whom at least one shall be of the opposite sex of the
Chairperson, as selected by the Association;
(e)
The Democratic Leader in the United
States Senate and the Democratic Leader in the United
States House of Representatives and one additional
member of each body, who shall be of the opposite sex
of, and appointed by the respective leaders;
(f)
The Chairperson, five Vice Chairpersons,
the National Finance Chair, the Treasurer and the
Secretary of the Democratic National Committee;
(g)
The Chairperson of the National
Conference of Democratic Mayors and two additional
mayors, at least one of whom shall be of the opposite
sex of the Chairperson, as selected by the Conference;
(h)
The President of the Young Democrats of
America and two additional members, at least one of
whom shall be of the opposite sex of the President, as
selected by the organization biennially in convention
assembled;
(i)
The President of the National Federation
of Democratic Women and two additional members
selected by the Federation;
(j)
The Chairperson of the Democratic
County Officials and two additional members, at least
one of whom shall be of the opposite sex of the
Chairperson, as selected by the organization;
(k)
The Chairperson of the Democratic
Legislative Campaign Committee and two additional

App. 95
state legislators, at least one of whom shall be of the
opposite sex of the Chairperson, as selected by the
Committee;
(l)
The Chairperson of the National
Democratic Municipal Officials Conference and two
additional municipal officials, of whom, to the extent
possible, at least one shall be of the opposite sex of the
Chairperson, as selected by the Conference;
(m) Additional members as provided in Article
Nine of the Charter;
(n)
The President of the College Democrats of
America and the Vice President, who shall be of the
opposite sex, as elected by the organization annually;
(o)
The Chairperson of the National
Association of Democratic State Treasurers and the
Vice Chair who shall be of the opposite sex, as selected
by the Association;
(p)
The Chairperson of the National
Association of Democratic Lieutenant Governors and
the Vice Chair who shall be of the opposite sex, as
selected by the Association;
(q)
The Chairperson of the Democratic
Association of Secretaries of State and the Vice Chair
who shall be of the opposite sex, as selected by the
Association;
(r)
The Chairperson of the Democratic
Attorneys General Association and one additional
attorney general who shall be of the opposite sex of the
Chairperson, as selected by the Association;
(s)
the Chairperson of the National
Democratic Ethnic Coordinating Committee, who is not
otherwise a member of the Democratic National
Committee and one additional member, who shall be of
the opposite sex, as selected by the Coordinating Committee;

App. 96
(t)
the Chairperson of the National
Democratic Seniors Coordinating Council, who is not
otherwise a member of the Democratic National
Committee and one additional member, who shall be of
the opposite sex, as selected by the Coordinating Council;
(u)
No more than seventy-five additional
members of the Democratic National Committee may
be added by the foregoing members.
Section 3. Selection of Members.
(a)
Members of the Democratic National
Committee apportioned to the States pursuant to the
provisions of Sections 2(b) and 2(c) of this Article and
those apportioned pursuant to the provisions of Article
Nine of the Charter who are not otherwise members by
virtue of Party office shall be selected by each state or
territorial Democratic Party in accordance with
standards as to participation established under Section
11 of this Article through processes which assure full,
timely and equal opportunity to participate. The
method of selection for such members shall be
described in detail in each state or territory’s Party
rules and shall be by one of the following methods or
any combination thereof:
(i)
by a meeting of the National
Convention delegation from the state or territory
authorized to elect National Committee members, at an
open meeting called within the calendar year of the
Convention after effective public notice of the agenda;
(ii)
by state or territorial Primary within
the calendar year of the National Convention;
(iii) by state or territorial Party committees
in an open meeting within the calendar year of the
National Convention called after effective public notice

App. 97
of the agenda;
(iv) by a state or territorial convention
authorized to select national committee members in an
open meeting within the calendar year of the National
Convention called after effective public notice of the
agenda; and
(v)
by such other method as may be
adopted by a state or territorial Party and approved by
the Democratic National Committee.
(b)
Selection by any of the above methods
shall be held to meet the requirements of full, timely
and equal opportunity to participate if the selecting
body has been established according to law and the
Charter and the rules of such body have been approved
by the Democratic National Committee.
(c)
Members of the Democratic National
Committee who serve by virtue of holding Party office
shall be selected by each State Party in accordance
with standards as to participation appearing in Section
11 of this Article.
(d)
When
the
number
of members
apportioned to a state or territory pursuant to Section
2(b) of this Article or Article Nine of the Charter is
even, there shall be equal division of members between
men and women. In such cases where the number is
odd, the variance between men and women may not be
greater than one.
(e)
Members of the Democratic National
Committee apportioned pursuant to the provisions of
Section 2(u) of this Article shall be elected by the
membership provided that notice of any such
nomination must be mailed to the membership no less
than seven (7) days prior to the election.

App. 98
Section 4.
Certification and Eligibility of Members.
(a)
Members of the Democratic National
Committee provided for in Section 2 of this Article shall
be certified to the National Committee as follows:
(i)
those authorized under subsections (a),
(b) and (c) of Section 2 shall be certified by the proper
Party authority of the state or territory;
(ii)
those authorized under subsection (d)
of Section 2 shall be certified by the Chairperson of the
Democratic Governors’ Association;
(iii) those authorized under subsection (e)
of Section 2 shall be certified by the Democratic Leader
in the United States Senate for the members from that
body and by the Democratic Leader in the United
States House of Representatives for the members from
that body;
(iv) those authorized under subsection (g)
of Section 2 shall be certified by the Chairperson of the
Conference of Democratic Mayors;
(v)
those authorized under subsection (h)
of Section 2 shall be certified by the President of the
Young Democrats of America;
(vi) those authorized under subsection (i)
of Section 2 shall be certified by the President of the
National Federation of Democratic Women;
(vii) those authorized under subsection (j)
of Section 2 shall be certified by the Chairperson of the
Democratic County Officials Conference;
(viii) those authorized under subsection (k)
of Section 2 shall be certified by the Chairperson of the
Democratic Legislative Campaign Committee;
(ix) those authorized under subsection (l)
of Section 2 shall be certified by the Chairperson of the
National Democratic Municipal Officials Conference;

App. 99
(x)
those authorized under subsection (n)
of Section 2 shall be certified by the President of the
College Democrats of America;
(xi) those authorized under subsection (o)
of Section 2 shall be certified by the Chairperson of the
National Association of Democratic State Treasurers;
(xii) those authorized under subsection (p)
of Section 2 shall be certified by the Chairperson of the
National Association of Democratic Lieutenant
Governors;
(xiii) those authorized under subsection (q)
of Section 2 shall be certified by the Chairperson of the
Democratic Association of Secretaries of State;
(xiv) those authorized under subsection (r)
of Section 2 shall be certified by the Chairperson of the
Democratic Attorneys General Association;
(xv) those authorized under subsection (s)
of Section 2 shall be certified by the Chairperson of the
National Democratic Ethnic Coordinating Committee;
(xvi) those authorized under subsection (t)
of Section 2 shall be certified by the Chairperson of the
National Democratic Seniors Coordinating Council;
(xvii) those otherwise authorized under
Section 2 shall be certified by the Chairperson of the
Democratic National Committee.
(b)
No person who is not or who does not
continue to be a resident for voting purposes of the
jurisdiction which he or she represents shall be eligible
to hold such office.
(c)
No person shall be entitled to vote on a
challenge to his or her credentials.
(d)
Contests involving membership or
challenges to credentials of members shall be heard
and adjudicated by the National Committee as

App. 100
determined or provided in Article Two, Section 10(b) of
these Bylaws.
Section 5. Resignation or Removal of Members.
(a)
A member of the Democratic National
Committee may resign by written notice to the
Chairperson of the National Committee, and such
resignation shall be effective immediately.
(b)
After notice and opportunity for public
hearing and upon grounds found by the National
Committee to constitute good and sufficient cause, the
National Committee may remove a member by twothirds vote of the National Committee.
(c)
Failure of any member of the National
Committee to declare affirmatively his or her support
for the Democratic Presidential and Vice Presidential
nominees within thirty (30) days after the adjournment
of the National Convention shall constitute good and
sufficient cause for removal.
Section 6. Vacancies. Vacancies created by
resignation or removal of any member of the National
Committee shall be filled as follows:
(a)
Vacancies in membership apportioned to
the states and territories pursuant to Sections 2(b) and
2(c) of this Article and Article Nine of the Charter shall
be filled by a state or territorial Party in open meeting
called after effective public notice of the agenda.
(b)
Vacancies created by the removal or
resignation of a state Chairperson or highest ranking
officer of the opposite sex shall be filled only by their
successors in accordance with Section 3(b) of this
Article.
(c)
Vacancies in the at-large membership of

App. 101
the National Committee shall be filled by the National
Committee.
(d)
Vacancies in positions filled by the
Democratic Governors’ Association, the Democratic
Mayors Conference, the House and Senate Leadership,
the Young Democrats of America, the Democratic
County Officials Conference, the Democratic
Legislative Campaign Committee, the National
Federation of Democratic Women, the National
Democratic Municipal Officials Conference, and the
College Democrats of America shall be filled by the
selecting authority, and in the case where the selecting
authority is not in session nor will be in session for a
year subsequent to the vacancy, by the body charged
with fulfilling the responsibilities operating the
organization between meetings of the full group.
Section 7. Meetings.
(a)
The National Committee shall meet as
soon as possible after the adjournment of the National
Convention on the call of the Chairperson. The
Committee is authorized to organize with those
members already selected, including any person seated
temporarily as provided in Section 10(b)(iv) and
entitled to serve as of the first meeting of the
Committee. They shall select those members of the
Executive Committee who are selected by the Regional
Caucuses, who shall serve with those who serve by
reason of office until the next regular meeting of the
Democratic National Committee.
(b)
At least two meetings of the National
Committee shall be held each year upon call of the
Chairperson and after notice to members, unless any
such meeting is dispensed with by prior vote of a

App. 102
majority of the full membership of the National
Committee.
(c)
Special meetings of the National
Committee may be held upon the call of the
Chairperson with the approval of the Executive
Committee with reasonable notice to the members, and
no action may be taken at such a special meeting
unless such proposed action was included in the notice
of the special meeting. The foregoing notwithstanding,
a special meeting to fill a vacancy on the National
ticket shall be held on the call of the Chairperson, who
shall set the date for such meeting in accordance with
the procedural rules provided for in Article Two,
Section 8(d) of these Bylaws.
(d)
No later than thirty (30) days before each
regularly scheduled meeting, and as soon as possible
before a special meeting of the Democratic National
Committee, the Secretary of the Democratic National
Committee shall send written notice of the date, time
and place of such meeting, and the tentative agenda to
all members of the Democratic National Committee.
(e)
Upon the written request of twenty-five
percent or more of the members of the National
Committee, filed with the Chairperson within a period
of thirty (30) days, it shall be the duty of the
Chairperson within fifteen (15) days from receipt of
such request to issue a call for a meeting of the
National Committee. The date of such meeting shall be
fixed by the Chairperson not later than thirty (30) days
nor earlier than fifteen (15) days from the date of the
call.
Section 8. Attendance and Quorum and Voting.
(a)
Members of the National Committee

App. 103
apportioned pursuant to the provisions of Section 2 of
this Article who miss three consecutive meetings of the
Democratic National Committee have failed to meet
the minimum level of attendance and shall be deemed
to have resigned from the Democratic National
Committee. Vacancies created by any member for
failing to meet the minimum level of attendance shall
be filled in accordance with the provisions of Section 6
of this Article. Proxies shall not be counted at any
meeting for the purpose of meeting the minimum level
of attendance.
(b)
A majority of the full membership of the
Democratic National Committee present in person or
by proxy shall constitute a quorum, provided that no
less than forty percent (40%) of the full membership be
present in person for the purpose of establishing a
quorum; provided, however, that for purposes of voting
to fill a vacancy on the National ticket, a quorum shall
be a majority of the full membership present in person.
(c)
Forty percent (40%) of the full
membership present in person or by proxy, or 50
members present in person, whichever is fewer, shall
constitute a quorum for meetings of:
(i)
the DNC standing committees on
Credentials, Resolutions, Rules and Bylaws and Budget
and Finance;
(ii)
the Eastern, Southern, Midwestern,
and Western Regional Caucuses;
(iii) the Hispanic, Black, Women’s, Asian
American and Pacific Islander, and Lesbian, Gay,
Bisexual and Transgender American Caucuses; and
(iv) other standing or ad hoc committees
created pursuant to the provisions of Section 10(f) of
these Bylaws.

App. 104
(d)
Except as otherwise provided in the
Charter or in these Bylaws, all questions before the
Democratic National Committee shall be determined by
majority vote of those members present and voting in
person or by proxy.
(i)
Up to seventy-five additional members
at-large of the Democratic National Committee added
by the remaining members pursuant to Article Three,
Section 2 of the Charter and eleven members at-large
of the Executive Committee selected by the Democratic
National Committee pursuant to Article Three, Section
2 of the Bylaws may be elected by plurality vote of the
members voting in person or by proxy; and
(ii)
A roll call may be requested by a vote
of twenty-five percent (25%) of those Democratic
National Committee members present and voting.
(e)
Each member of the National Committee
shall be entitled to one vote on each issue before it,
except that Democrats Abroad shall have four votes on
the Democratic National Committee, which votes shall
be shared by the Chairperson, the highest ranking
officer of the opposite sex, three National
Committeemen and three National Committeewomen.
(f)
Voting to fill a vacancy on the National
ticket shall be in accord with procedural rules adopted
by the Rules and Bylaws Committee and approved by
the Democratic National Committee.
(g)
Proxy voting shall be permitted. Proxies
may be either general or limited and either instructed
or uninstructed. All proxies shall be in writing and
transferable if so specified. No DNC member may at
any one time hold or exercise proxies for more than one
other DNC member; provided, however, that proxy
voting shall not be permitted in voting to fill a vacancy

App. 105
on the National ticket.
(h)
The Chairperson of the National
Committee may refer matters to the members of the
National Committee for consideration and vote by mail,
provided, however, that if members aggregating more
than twenty percent (20%) of the full membership shall
so request, the matter shall be presented to the next
meeting of the National Committee.
Section 9.
Regional Caucuses. There shall be four
Regional Caucuses of the members of a Democratic
National Committee, comprised as follows:
EASTERN
Connecticut
Delaware
District of
Columbia
Maine
Maryland

Massachusetts
New Hampshire
New Jersey

Puerto Rico
Rhode Island
Vermont

New York
Pennsylvania

Virgin Islands
Democrats
Abroad (½ vote)

SOUTHERN
Alabama
Arkansas
Florida
Georgia

Louisiana
Mississippi
North Carolina
South Carolina

Kentucky

Tennessee

Texas
Virginia
West Virginia
Democrats
Abroad (½ vote)

App. 106
MIDWESTERN
Illinois
Indiana

Missouri
Nebraska

Iowa
Kansas
Michigan
Minnesota

North Dakota
Ohio
Oklahoma
South Dakota

Wisconsin
Democrats
Abroad (½ vote)

WESTERN
Alaska
American Samoa
Arizona
California
Colorado

Hawaii
Idaho
Montana
Nevada
New Mexico

Guam

Northern
Mariana Islands

Oregon
Utah
Washington
Wyoming
Democrats
Abroad (½ vote)

Section 10. Committees.
(a)
In addition to the Committees otherwise
provided for in the Charter or in these Bylaws, there
shall be the following standing committees of the
Democratic National Committee:
(i)
Credentials Committee;
(ii)
Resolutions Committee;
(iii) Rules and Bylaws Committee;
(iv) Budget and Finance Committe.
(b) (i) The Credentials Committee shall receive
and consider all challenges to the credentials of

App. 107
Democratic National Committee members.
(ii)
Any challenge to the credentials of a
member of the Democratic National Committee may be
made by any Democrat from the state or territory of
the member challenged or any member of the
Democratic National Committee and shall be filed by
Registered Mail (return receipt requested) within
thirty (30) days of the selection of such member.
(iii) The Credentials Committee shall
determine the validity of the credentials of those
elected to the National Committee, and decide all
challenges to the seating of such members. The
Credentials Committee shall provide each party to a
dispute a reasonable opportunity to be heard, and may
give an opportunity for submission of briefs and oral
argument and shall render a written report on the
issues to the National Committee.
(iv) The National Committee shall proceed
to a determination of such contest or contests as its
first order of business, if feasible, including the
temporary seating of challenged members, in order
that the members may participate in other business
before the National Committee.
(c) (i) The Resolutions Committee shall receive
and consider all resolutions proposed by a member of
the Democratic National Committee on matters of
policy proposed for adoption by the Democratic
National Committee, and shall report in writing. Said
report shall contain the text of each resolution
recommended by the Committee for adoption, and shall
identify resolutions considered but not recommended
for adoption; and
(ii)
resolutions shall be submitted to the
Secretary of the Democratic National Committee at

App. 108
least twenty-one (21) days prior to the meeting of the
National Committee, and copies of all such resolutions
shall be sent to each member no less than fourteen (14)
days prior to the National Committee meeting,
provided that the Executive Committee may vote to
submit urgent timely resolutions to the National
Committee even though not submitted within these
time periods.
(d) (i) The Rules and Bylaws Committee shall
receive and consider all recommendations for adoption
and amendments to the Rules and Bylaws of the
National Committee and to the Charter of the
Democratic Party of the United States;
(ii)
recommendations for amendment to
the Charter of the Democratic Party of the United
States shall be received by the Rules and Bylaws
Committee no less than sixty (60) days prior to a
regular meeting of the Democratic National
Committee, provided that the Executive Committee
may approve direct submission of a recommended
amendment to the Charter if the requirements of
timeliness of the Charter are otherwise met;
(iii) recommendations for amendment to
the Bylaws or adoption of Rules for the Democratic
National Committee shall be submitted to the Rules
Committee no less than thirty (30) days prior to a
meeting of the National Committee, and the Secretary
of the National Committee shall mail such proposed
recommendations to the members no less than thirty
(30) days prior to the National Committee. It shall be
the responsibility of the member of the National
Committee submitting a Bylaws Amendment to
distribute a copy to all members of the Committee
within the time required by these Bylaws for

App. 109
consideration, or submit the request to the Secretary
with ample time to make such distribution;
(iv) the Executive Committee may refer to
the Rules and Bylaws Committee for preliminary
consideration the temporary Rules of the National
Convention to be included in the Call to the
Convention, and the Executive Committee may adopt
the recommendations of the Rules and Bylaws
Committee as such temporary Convention rules;
(v)
the Rules and Bylaws Committee shall
conduct a continuing study of the Bylaws, Rules and
Charter and make periodic recommendations for
amendment, extension or other action, provided that
any such recommendations by the Rules and Bylaws
Committee be submitted to the members of the
National Committee at the time the agenda is
presented; and
(vi) the report of the Rules and Bylaws
Committee shall be in writing and shall contain the full
text of action recommended and shall identify
recommendations not approved by the Committee for
adoption.
(e)
Budget and Finance Committee
(i)
The Budget and Finance Committee
shall be composed of the Treasurer, the National
Finance Chair and not more than nine other members
of the Democratic National Committee who have
training or experience in finance or management;
(ii)
the Budget and Finance Committee
shall in full consultation with the National
Chairperson of the Democratic National Committee,
review the budget of the Democratic National
Committee on an on-going basis, make periodic reports
including an annual report to the Executive Committee

App. 110
and the full Democratic National Committee on the
goals, purposes of expenditures and results of
expenditures of the Democratic National Committee
and its staff;
(iii) the Budget and Finance Committee
shall, working with the National Chairperson, Chief
Financial Officer and counsel, develop and present to
the Executive Committee, policies and procedures with
respect to:
(a)
contracting and procurement of
goods and services by the Democratic National
Committee, including affirmative action policies; and
(b)
avoidance of conflicts of interest;
(iv) meetings of the Budget and Finance
Committee shall not be subject to the provisions of
Article Nine, Section 12 of the Charter
(f)
The National Committee may from time
to time create such other standing or ad hoc
committees as it shall deem appropriate.
(g)
Except as otherwise provided in the
Charter or in these Bylaws, the members of all
committees of the National Committee shall be
appointed by the Chairperson of the Democratic
National Committee, in consultation with the
Executive Committee, subject to ratification by the
Democratic National Committee, and shall be
appointed to serve for the tenure of the Chairperson.
Notwithstanding the above provision, notice of such
pending appointment must be mailed to the Democratic
National Committee membership no less than seven (7)
days prior to the vote on ratification.
(h)
Failure by members to attend three
consecutive meetings of the committees of the National
Committee shall constitute a failure to meet the

App. 111
minimum level of attendance and shall constitute
automatic resignation from the committee. The
provisions of Section 8(g) of this Article shall apply to
committees of the National Committee, except that
proxies shall not be counted at any meeting for the
purpose of meeting the minimum level of attendance.
Attendance records of committees of the National
Committee shall be reported annually to the Executive
Committee.
(i)
All matters referred to any council, special
committee, standing committee, conference or any
other sub-group must be acted upon and said action
reported to the body which originated the reference.
Section 11. Participation in All Party Affairs.
(a)
The Democratic Party of the United States
shall be open to all who desire to support the Party and
who wish to be known as Democrats. Participation in
the affairs of the Democratic Party shall be open
pursuant to the standards of non-discrimination and
affirmative action incorporated into the Charter of the
Democratic Party of the United States.
(b) (i) The National, State, and Local Democratic
Party organizations shall undertake affirmative action
programs designed to encourage the fullest
participation of all Democrats in all Party affairs. All
Party affairs shall mean all activities of each official
Party organization commencing at the lowest level and
continuing up through the National Democratic Party.
Such activities shall include but need not be limited to
the processes in which delegates are selected to the
National Democratic Convention; Party officials are
nominated or selected; Party policy, platforms, and
rules are formulated; and regular programs of voter

App. 112
registration, public education and public relations.
Such programs may be developed and sponsored in
cooperation with the Democratic National Committee.
(ii)
National and State Democratic Parties
shall carry out programs to facilitate and increase the
participation of low and moderate income persons.
These programs shall include provisions and resources
for outreach and recruitment to achieve representation
and equitably minimize economic factors which act to
bar full participation by such persons.
(iii) State and National Parties shall act
affirmatively to develop and implement appropriate
education, training, fund-raising and outreach
programs directed at low and moderate income
Democrats and shall implement rules and regulations
of the Party in their most constructive interpretation to
effect increased participation and representation by
people of low and moderate income. Non-discrimination
as it relates to this Section (11(b)) and as provided in
Article Eight, Section 2 of the Charter shall be strictly
enforced.
(c) (i)
Each state or territorial Party shall
require each unit of the Party which holds such
meetings to publicize effectively and in a timely fashion
the dates, times, and places of all such meetings, and
the name or names of the person responsible for such
meetings.
(ii)
Notice of meetings shall be published
as required in this Section prior to the meeting. Such
notice may appear as legal notice, paid advertisement,
news item, direct mail, radio or television
announcement, or in such other form as may
reasonably be designed to notify Democrats of the
meeting provided no state, territorial, or county Party

App. 113
is required to purchase paid advertising; and
(iii) If challenged, a state or territorial
Party shall be deemed to be in compliance with this
Section upon proof of effective notice from the reporting
unit of the Party.
(d)
If a county or any local unit of the state or
territorial Party fails to comply with the foregoing
provisions of this Section, the state or territorial Party
may assume responsibility for setting dates, times and
places for local meetings and for giving notice of the
same as provided in this Section.
(e)
Each state or territorial Party may
establish such procedures and structures as are
necessary to ensure compliance with this Section,
including procedures for review of complaints of noncompliance with this Section by any unit of the political
process, including the state.
(f)
If a state or territorial Party is alleged to
have failed to comply with this Section, the alleged
non-compliance shall be referred to the Democratic
National Committee for review provided that any
person alleging non-compliance at any level shall be a
resident of the affected jurisdiction and provided that
any person alleging non-compliance of a state or
territorial Party with this section shall have exhausted
all remedies provided by the state or territorial Party.
Section 12. Duties and Responsibilities of the
Chairperson.
(a)
The Chairperson shall be the chief
executive officer of the Democratic National Committee
and shall exercise authority delegated to him or her by
the Democratic National Committee and the
Democratic National Committee’s Executive

App. 114
Committee in carrying out the day-to-day activities of
the Committee.
(b)
By the time of the next DNC meeting
following his or her election, the Chairperson shall
designate a Vice Chair who will have authority to act
as Chairperson should a vacancy occur or should the
Chairperson become incapacitated. In the event of such
succession, the designated Vice Chair will serve in the
capacity of the Chairperson until a new Chairperson is
elected at the next regularly scheduled meeting of the
full Democratic National Committee.
ARTICLE THREE
Executive Committee
Section 1. Powers and Duties. The Executive
Committee of the Democratic National Committee shall
be responsible for the conduct of the affairs of the
Democratic Party in the interim between the meetings
of the full Committee. This responsibility shall include,
but not be limited to:
(a)
Authority for the Democratic National
Committee between meetings thereof;
(b)
Recommending approval of the budget of
the Democratic National Committee; and
(c)
Reporting all of its proceedings to the
Democratic National Committee.
Section 2.
Membership. The Executive Committee
shall be composed of:
(a)
The Chairpersons of the Regional
Caucuses of the Democratic National Committee who
must be members of the Democratic National Committee;
(b)
Four members elected by each of the

App. 115
Regional Caucuses of the Democratic National
Committee, who shall be equally divided between men
and women and all of whom shall be members of the
Democratic National Committee;
(c)
The Chairperson,
the five Vice
Chairpersons, the Treasurer, and the Secretary of the
Democratic National Committee;
(d)
The National Finance Chair;
(e)
The Chairperson of the Democratic
Governors’ Association or his or her designee from that
Association, who must be a member of the Democratic
National Committee;
(f)
The Democratic Leader of the United
States Senate or his or her designee, who must be a
member of the Democratic National Committee, and
the Democratic Leader from the United States House
of Representatives or his or her designee, who must be
a member of the Democratic National Committee;
(g)
The Chairperson of the National
Conference of Democratic Mayors or his or her
designee, who must be a member of the Democratic
National Committee;
(h)
The Chairperson of the Democratic
Legislative Campaign Committee or his or her designee
from that Committee, who must be a member of the
Democratic National Committee;
(i)
The Chairperson of the National
Democratic County Officials or his or her designee, who
must be a member of the Democratic National Committee;
(j)
The Chairperson of the National
Democratic Municipal Officials Conference or his or her
designee, who must be a member of the Democratic
National Committee;
(k)
The President of the Young Democrats of

App. 116
America or his or her designee, who must be a member
of the Democratic National Committee;
(l)
Three additional members of the
Association of State Democratic Chairs to be selected
by the Association;
(m) The President of the National Federation
of Democratic Women or her designee, who must be a
member of the Democratic National Committee;
(n)
The Chairs of the Hispanic, Black, Asian
American and Pacific Islander, and Lesbian, Gay,
Bisexual and Transgender American Caucuses of the
Democratic National Committee or his or her designee,
who must be a member of the Democratic National
Committee;
(o)
The Chair of the Women’s Caucus of the
Democratic National Committee or her designee, who
must be a member of the Democratic National
Committee;
(p)
The President of the College Democrats of
America or his or her designee, who must be a member
of the Democratic National Committee;
(q)
Eleven members at-large, elected by the
Democratic National Committee, who shall be equally
divided between men and women, all of whom must be
members of the Democratic National Committee;
(r)
The Chairs of the standing committees on
Credentials, Resolutions, and Rules and Bylaws.
(s)
Any designee as provided for in this
section, may not otherwise be a member of the
Executive Committee and must be a member of the
organization or constituency he or she is designated to
represent.

App. 117
Section 3. Election of Members.
(a)
Members of the Executive Committee
representing the Regional and Constituency Caucuses
pursuant to Section 2(b), 2(n) and 2(o) of this Article
shall be elected:
(i)
at the second meeting of the
Democratic National Committee held after the
succeeding presidential election; and
(ii)
whenever a vacancy occurs.
(b)
Members of the Executive Committee
elected at-large as apportioned pursuant to Section 2(q)
of this Article shall be elected:
(i)
at the second meeting of the
Democratic National Committee held after the
succeeding presidential election; and
(ii)
whenever a vacancy occurs.
(iii) Notwithstanding the above provisions,
notice of any such nomination must be mailed to the
Democratic National Committee membership no less
than seven (7) days prior to the election.
(c)
Members of the Executive Committee
shall serve until the election of their successors. Upon
the resignation of a member, a successor shall be
selected by the original official authority to serve the
unexpired portion of the term.
Section 4. Meetings. The Executive Committee
shall meet at least four times each year. Meetings shall
be called by the Chairperson or by written request of no
fewer than one-fourth of its members. All members of
the Democratic National Committee shall be notified of
meetings of the Executive Committee. The Executive
Committee shall keep a record of its proceedings which
shall be available to the public.

App. 118
Section 5. Attendance and Quorum and Voting.
(a)
Members of the Executive Committee
apportioned pursuant to the provisions of Section 2 of
this Article who miss three consecutive meetings of the
Democratic National Committee Executive Committee
have failed to meet the minimum level of attendance
and shall be deemed to have resigned from the
Executive Committee. Vacancies created by any
member for failing to meet the minimum level of
attendance shall be filled by the original authority.
Proxies shall not be counted at any meeting for the
purpose of meeting the minimum level of attendance.
(b)
Notwithstanding the above provision, the
provisions of Section 8 of Article Two of these Bylaws
shall apply to the Executive Committee.
ARTICLE FOUR
National Finance Organizations
Section 1. Duties and Powers. The National
Finance Organizations of the Democratic Party shall
have general responsibility for the finances of the
Democratic Party for raising funds to support the
Democratic Party and the Democratic National
Committee to advise and assist State Democratic
parties and candidates in securing funds for their
purposes. The National Finance Chair and the
Treasurer will advise the National Chairperson of the
Democratic Party and the Executive Committee of the
Democratic National Committee with respect to the
finances of the Democratic Party.

App. 119
ARTICLE FIVE
Amendments
Bylaws may be adopted or amended by majority
vote of:
(a)
the National Convention; or
(b)
the Democratic National Committee
provided that thirty (30) days written notice of any
proposed Bylaw or amendment has been given to all
members of the National Committee. Unless adopted in
the form of an amendment to the Charter or otherwise
designated, any resolution adopted by the National
Convention relating to the governance of the Party
shall be considered a Bylaw.

App. 120

APPENDIX F
MOTION TO AMEND COMPLAINT PURSUANT
TO 28 U.S.C. § 1653
Pursuant to 28 U.S.C. § 1653, Petitioners
respectfully move this Court for leave to file the
attached proposed Third Amended Complaint on the
following grounds:
1. Under 28 U.S.C. § 1653, “Defective allegations of
jurisdiction may be amended, upon terms, in the trial
or appellate courts.” The statute authorizes the
Supreme Court to permit amendment of jurisdictional
allegations. Molnar v. Nat’l Broadcasting Co., 231 F.2d
684, 686 (9th Cir. 1956) (citing Norton v. Larney, 266
U.S. 511, 516 (1925)).
2. The attached proposed Third Amended
Complaint (Exhibit A) seeks to remedy defective
allegations of jurisdiction identified by the district
court and circuit court. See Wilding v. DNC Servs.
Corp., 2017 WL 6345492, *4 (S.D. Fla. Aug. 25, 2017);
Wilding v. DNC Servs. Corp., 941 F.3d 1116, 1126
(11th Cir. 2019). To wit, the proposed amended
complaint identifies the statements and omissions of
the defendants on which the plaintiffs relied in making
donations to the Bernie Sanders campaign and the
Democratic National Committee, and identifies the
dates on which the Sanders donor plaintiffs made
payments. See Ex. A ¶¶ 2-5.

App. 121
3. Given the magnitude of the issues raised by this
action (as set forth in detail in the accompanying
petition for writ of certiorari), Petitioners respectfully
request that the Court grant leave to amend the
complaint so that the case may be adjudicated on the
merits and not on matters of pleading technicality. See
Foman v. Davis, 371 U.S. 178, 181 (1962) (“It is too late
in the day and entirely contrary to the spirit of the
Federal Rules of Civil Procedure for decisions on the
merits to be avoided on the basis of such mere
technicalities.”).
CONCLUSION
Petitioners respectfully request that the Court
grant leave to file the attached proposed Third
Amended Complaint along with such other and further
relief as may be necessary and proper.
DATED: March 26, 2020
Respectfully submitted,
/s/ Cullin O’Brien
CULLIN O’BRIEN
Counsel of Record for Petitioners
Supreme Court Bar No. 275829
Florida Bar No. 597341
CULLIN O’BRIEN LAW, P.A.
6541 NE 21st Way
Ft. Lauderdale, FL 33308
Tel: (561) 676-6370
Fax: (561) 320-0285
cullin@cullinobrienlaw.com

App. 122
JARED H. BECK
Florida Bar No. 20695
ELIZABETH LEE BECK
Florida Bar No. 20697
VICTOR ARCA
Florida Bar No. 1014225
BECK & LEE TRIAL LAWYERS
Corporate Park at Kendall
12485 SW 137th Ave., Suite 205
Miami, FL 33186
Tel: (305) 234-2060
Fax: (786) 664-3334
jared@beckandlee.com
elizabeth@beckandlee.com
victor@beckandlee.com
ANTONINO G. HERNANDEZ
Florida Bar No. 164828
ANTONINO G. HERNANDEZ, P.A.
4 SE 1st St. 2nd Floor
Miami, FL 33131
Tel: (305) 282-3698
Fax: (786) 513-7748
hern8491@bellsouth.net

App. 123
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
FORT LAUDERDALE DIVISION
CASE NO. 16-cv-61511-WJZ
______________________________________
CAROL WILDING, LAURA GENNA;
)
SHERRY DAVIS; NANCY BERNERS)
LEE; VINCENT CAUCHI; and GEORGE )
THOMAS, individually, and on behalf
)
of all those similarly situated,
)
)
Plaintiffs,
)
)
vs.
)
)
DNC SERVICES CORPORATION,
)
d/b/a DEMOCRATIC NATIONAL
)
COMMITTEE, and DEBORAH
)
“DEBBIE” WASSERMAN SCHULTZ,
)
)
Defendants.
)
______________________________________ )
THIRD AMENDED COMPLAINT –
CLASS ACTION
DEMAND FOR JURY TRIAL
Plaintiffs, CAROL WILDING, LAURA GENNA,
SHERRY DAVIS, NANCY BERNERS-LEE, VINCENT
CAUCHI, and GEORGE THOMAS, individually, and
on behalf of all those similarly situated (collectively,
“Plaintiffs”), individually and on behalf of all those

App. 124
similarly situated, by and through undersigned
counsel, hereby sue Defendants, DNC SERVICES
CORPORATION d/b/a DEMOCRATIC NATIONAL
COMMITTEE and DEBORAH “DEBBIE”
WASSERMAN SCHULTZ (collectively, “Defendants”),
and allege the following:
JURISDICTION AND VENUE
1.
This Court has original jurisdiction over the
claims asserted herein individually and on behalf of the
class pursuant to 28 U.S.C. §1332(d), as amended in
February 2005 by the Class Action Fairness Act.
Alternatively, this Court has original jurisdiction under
28 U.S.C. §1332(a). Subject matter jurisdiction is
proper because: (1) the amount in controversy in this
class action exceeds five million dollars, exclusive of
interest and costs; and (2) a substantial number of the
members of the proposed classes are citizens of a state
different from that of Defendants.
Personal
jurisdiction is proper as both Defendants have
purposefully availed themselves of the privilege of
conducting business activities within this District, and
Defendant, Deborah “Debbie” Wasserman Schultz
resides in and is a Congresswoman representing
portions of this District. Venue is proper in this
judicial district under 28 U.S.C. §1391(b)(1) because
both Defendants are deemed to reside in this District
and under 28 U.S.C. §1391(b)(2) because both
Defendants conduct business in this District and a
substantial part of the acts or omissions giving rise to
the claims set forth herein occurred in this District.

App. 125
THE PARTIES AND CERTAIN RELEVANT
NON-PARTIES
Plaintiffs
2.
Plaintiff Carol Wilding (“Wilding”) is a citizen
of Florida. She contributed a total of $445.50 to Bernie
Sanders’ presidential campaign via ActBlue with
payments made on the following dates: September 18
and December 19, 2015; and February 10, February 19,
March 6, March 31, April 27, May 4, May 18, May 28,
and June 13, 2016. In making these payments, she
relied on her belief that the Democratic nominating
process was fair and evenhanded, and she relied on
Defendants’ omission from their statements set forth in
paragraphs 15 and 16(a)-(e), infra, to disclose that the
DNC was favoring candidate and eventual nominee
Hillary Clinton behind the scenes.
3.
Plaintiff Laura Genna (“Genna”) is a citizen
of New Jersey. She contributed a total of $87.80 to
Bernie Sanders’ presidential campaign via ActBlue
with payments made on the following dates: January
29, March 27, April 29, May 14, May 16, May 28, and
June 8, 2016. In making these payments, she relied on
her belief that the Democratic nominating process was
fair and evenhanded, and she relied on Defendants’
omission from their statements set forth in paragraphs
15 and 16(a)-(e), infra, to disclose the DNC was
favoring candidate and eventual nominee Hillary
Clinton behind the scenes.
4.
Plaintiff Sherry Davis (“Davis”) is a citizen of
Washington. She contributed a total of $173 to the
DNC on the following dates: August 13 and December

App. 126
19, 2015, and January 17, January 27, March 14, April
20, and April 21, 2016. In making these payments, she
relied on her belief that the Democratic nominating
process was fair and evenhanded, and she relied on
Defendants’ omission from their statements set forth in
paragraphs 15 and 16(a)-(d), infra, to disclose the DNC
was favoring candidate and eventual nominee Hillary
Clinton behind the scenes.
5.
Plaintiff Nancy Berners-Lee (“Berners-Lee”)
is a citizen of Massachusetts. She contributed a total
of $100 to the DNC on July 20, 2015. In making this
payment, she relied on her belief that the Democratic
nominating process was fair and evenhanded, and she
relied on Defendants’ omission from their statement set
forth in paragraph 15, infra, to disclose the DNC was
favoring candidate and eventual nominee Hillary
Clinton behind the scenes.
6.
Plaintiff Vincent Cauchi (“Cauchi”) is a
citizen of California. He is a registered Democrat, and
has been for 40 years. He voted for Bernie Sanders in
the 2016 California Democratic primary.
7.
Plaintiff George Thomas (“Thomas”) is a
citizen of Washington. He is a registered Democrat,
and has been for the past 35 years. He caucused for
Bernie Sanders in the 2016 Washington Democratic
caucuses.
8.
Plaintiffs collectively represent only a
fraction of the individuals who are willing and able to
serve as class representatives in this action. Over
1,000 additional members of the proposed classes have
volunteered to be class representatives, and have

App. 127
retained undersigned counsel in order to do so. To
date, undersigned counsel have received over 13,000
inquiries from potential class members seeking
information about the suit.
Defendants
9.
Defendant, DNC Services Corporation, d/b/a
Democratic National Committee (the “DNC”), at all
times relevant hereto, was and is a not-for-profit
corporation organized under the laws of the District of
Columbia and is the operating body of the United
States Democratic Party. The DNC maintains its
principal place of business at 430 South Capitol Street
Southeast in Washington, District of Columbia.
10.
Defendant, Deborah “Debbie” Wasserman
Schultz (“Wasserman Schultz”) was the Chairperson of
the DNC since 2011. Wasserman Schultz is a citizen of
Florida with offices in Pembroke Pines, Florida, and
Aventura, Florida, in addition to offices in Washington,
D.C.
Non-Party
11.
Non-party ActBlue is a United States
political action committee established in June 2004
that enables online fundraising for Democratic Party
campaigns. ActBlue charges a 3.95% “processing” fee
for each contribution.
Some Plaintiffs utilized
ActBlue’s online services to make the contributions
referred to herein.

App. 128
GENERAL FACTS
12.
The DNC is the formal governing body for the
United States Democratic Party.
The DNC is
responsible for coordinating strategy in support of
Democratic Party candidates for local, state, and
national office.
13.
As part of its duties, the DNC organizes the
Democratic National Convention every four years to
nominate and confirm a candidate for President, and
establishes rules for the state caucuses and primaries
that choose delegates to the convention.
14.
Since 2011, Wasserman Schultz was
Chairperson of the DNC. Wasserman Schultz has also
served as the U.S. Representative for Florida’s 23rd
congressional district since 2013; before then, she
represented Florida’s 20th district in the U.S. House of
Representatives starting in 2005.
15.
The DNC is governed by the Charter and
Bylaws of the Democratic Party. These governing
documents expressly obligate the DNC to maintain a
neutral posture with respect to candidates seeking the
party’s nomination for President during the nominating
process. Article 5, Section 4 of the Charter states:
The National Chairperson shall serve full
time and shall receive such compensation as
may be determined by agreement between the
Chairperson and the Democratic National
Committee. In the conduct and management of
the affairs and procedures of the Democratic
National Committee, particularly as they apply
to the preparation and conduct of the

App. 129
Presidential nominating process, the
Chairperson shall exercise impartiality and
evenhandedness as between the Presidential
candidates and campaigns. The Chairperson
shall be responsible for ensuring that the
national officers and staff of the Democratic
National Committee maintain impartiality
and evenhandedness during the Democratic
Party Presidential nominating process.
(emphasis added).
16.
Consistent with what the Charter requires,
the DNC, through Wasserman Schultz and other
employees, and from the very beginning of the
presidential race, has consistently and publicly
affirmed its impartiality and evenhandedness with
respect to the nominating process for the Democratic
nominee for President in 2016. For example:
a) A September 3, 2015 article in Politico reporting
on Wasserman Schultz’s relationships with Hillary
Clinton and Joe Biden quoted Wasserman Schultz
as saying, “I count both Secretary Clinton and Vice
President Biden as dear friends, but no matter who
comprises our field of candidates it’s my job to run
a neutral primary process and that’s what I am
committed to doing[.]”1

1

See Edward-Isaac Dovere & Marc Caputo, “Wasserman Schultz’s
divided loyalties,” Politico, available at http://www.politico.com/
story/2015/09/debbie-wasserman-schultz-joe-biden-hillary-clinton2016-loyalty-213294 (last visited June 20, 2016).

App. 130
b) A September 16, 2015 article in The Daily Beast
on the Democratic candidate debate schedule
quoted DNC spokesperson Holly Shulman
(“Shuman”) as stating, “[t]he DNC runs an
impartial primary process.”2
c)
Shulman was also quoted in an article
appearing in the Daily Mail Online (UK) on October
16, 2015, as stating, “[t]he DNC runs an impartial
primary process, period.”3
d) In a CNN appearance on May 17, 2016, where
she discussed alleged “violence” by supporters of
Bernie Sanders at the Nevada State Democratic
Convention, Wasserman Schultz stated that, “[t]he
Democratic National Committee remains neutral in
this primary, based on our rules.”4

2

See Olivia Nuzzi, “Is the Democratic National Committee in the
Tank for Hillary?,” The Daily Beast, available at
http://www.thedailybeast.com/articles/2015/09/16/is-thedemocratic-national-committee-in-the-tank-for-hillary.html (last
visited June 20, 2016).
3

See David Martosko, “Democratic National Committeewoman
says her party is ‘clearing a path’ for Hillary because ‘the women
in charge’ want it that way,” available at
http://www.dailymail.co.uk/news/article-3273404/DemocraticNational-Committeewoman-says-party-clearing-path-Hillarywomen-charge-want-way.html (last visited June 20, 2016).

4

The video may be viewed on the internet at
http://www.realclearpolitics.com/video/2016/05/17/debbie_wasser
man_schultz_what_happened_at_nevada_convention_was_unacc
eptable_sanders_added_fuel_to_the_fire.html (last visited June 20,
2016).

App. 131
e) In a statement quoted by the Associated Press
on May 21, 2016, while discussing Sanders’
endorsement of her primary opponent for Congress,
Wasserman Schultz stated, “[e]ven though Senator
Sanders has endorsed my opponent, I remain, as I
have been from the beginning, neutral in the
presidential Democratic primary.”5
17.
Despite the requirements in the Charter, and
in spite of the multiple public declarations of neutrality
and impartiality with respect to the Democratic
primary process, the DNC was not neutral. To the
contrary, the DNC was biased in favor of one candidate
– Hillary Clinton (“Clinton”) – from the beginning and
throughout the process.
The DNC devoted its
considerable resources to supporting Clinton above any
of the other Democratic candidates. Through its public
claims to being neutral and impartial, the DNC
actively concealed its bias from its own donors as well
as donors to the campaigns of Clinton’s rivals,
including Bernie Sanders (“Sanders”).
18.
The truth of the DNC’s deception started to
come to public light in June 2016.
19.
On June 14, 2016, officials of the DNC
announced that Russian government hackers had
penetrated its computer network. The hackers had
access to the network for approximately one year.

5

See Tribune news services, “Sanders says he is backing
opponent of DNC chair Wasserman Schultz,” Chicago Tribune
(May 21, 2016), available at http://www.chicagotribune.com/
news/nationworld/politics/ct-sanders-dnc-chair-20160521story.html (last visited June 20, 2016).

App. 132
According to the Washington Post, “[t]he intruders so
thoroughly compromised the DNC’s system that they
also were able to read all email and chat traffic” – but
in the same article, “[t]he DNC said that no financial,
donor or personal information appears to have been
accessed or taken[.]” 6
20.
The same day, CrowdStrike – a network
security consulting firm retained by the DNC to
investigate and respond to the breach – publicly
released more details. According to CrowdStrike, two
separate hacker groups affiliated with the Russian
government, codenamed “Cozy Bear” and “Fancy Bear,”
were detected as having infiltrated the DNC network.
Both groups have a long history of successfully
targeting sensitive government and industry computer
networks in both the United States and other
countries, often using “sophisticated phishing attacks.”
CrowdStrike concluded that Cozy Bear’s intrusion of
the DNC network began in summer of 2015, while
Fancy Bear separately breached it in April 2016.7
6

See Ellen Nakashima, “Russian government hackers penetrated
DNC, stole opposition research on Trump,” The Washington
Post (June 14, 2016), available at https://www.washington
post.com/ world/national-security/russian-government-hackerspenetrated-dnc-stole-opposition-research-on-trump/2016/06/14/
cf006cb4-316e-11e6-8ff7-7b6c1998b7a0_story.html (last visited
June 23, 2016).
7

See Dmitri Alperovitch, “Bears in the Midst: Intrusion into the
Democratic National Committee,” CrowdStrike Blog (June 14,
2016, updated June 15, 2016), available at
https://www.crowdstrike.com/blog/bears-midst-intrusiondemocratic-national-committee/ (last visited June 23, 2016);
Michael Kan, “Russian hackers breach DNC computers, steal data

App. 133
21.
On June 15, 2016, an individual using the
name “Guccifer 2.0” established a publicly accessible
website (https://guccifer2.wordpress.com) and posted a
statement taking credit for the DNC server hack.8
Below the statement, Guccifer 2.0 posted a series of
documents purportedly taken from the DNC’s servers
including: (a) a 281-page confidential “Donald Trump
Report” purportedly submitted to the DNC on 12/19/15
and containing extensive research on the presumptive
Republican presidential nominee; (b) Excel
spreadsheets containing the names and personal
information of donors to the Democratic Party and
Hillary Clinton’s campaign; and (c) a 59-page
memorandum marked “Secret” setting forth national
security and foreign policy “promises and proposals”
and purportedly obtained from Clinton’s personal
computer.9
22.
Among the documents released by Guccifer
2.0 on June 15th is a two-page Microsoft Word file with
a “Confidential” watermark that appears to be a
on Donald Trump,” PCWorld (June 14, 2016), available at
http://www.pcworld.com/article/3083440/security/russian-hackersbreach-dnc-computers-steal-data-on-trump.html (last visited June 23,
2016).
8

See Ellen Nakashima, “‘Guccifer 2.0’ claims credit for DNC hack,”
The Washington Post (June 15, 2016), available at
https://www.washingtonpost.com/world/national-security/guccifer20-claims-credit-for-dnc-hack/2016/06/15/abdcdf48-3366-11e6-8ff77b6c1998b7a0_story.html (last visited June 23, 2016).

9

Guccifer 2.0, “DNC’s Servers Hacked By A Lone Hacker,”
available at https://guccifer2.wordpress.com/2016/06/15/dnc/ (last
visited June 23, 2016).

App. 134
memorandum written to the Democratic National
Committee regarding “2016 GOP presidential
candidates” and dated May 26, 2015. A true and
correct copy of this document (hereinafter, “DNC
Memo”) is attached as Exhibit 1.10
23.
The DNC Memo presents, “a suggested
strategy for positioning and public messaging around
the 2016 Republican presidential field.” It states that,
“Our goals in the coming months will be to frame the
Republican field and the eventual nominee early and to
provide a contrast between the GOP field and
HRC.”11 (emphasis added). The DNC Memo also
advises that the DNC, “[u]se specific hits to muddy the
waters around ethics, transparency and campaign
finance attacks on HRC.” In order to “muddy the
waters” around Clinton’s perceived vulnerabilities, the
DNC Memo suggests “several different methods” of
attack including: (a) “[w]orking through the DNC” to
“utilize reporters” and create stories in the media “with
no fingerprints”; (b) “prep[ping]” reporters for
interviews with GOP candidates and having off-therecord conversations with them; (c) making use of

10

Despite being asked the question repeatedly, the DNC has never
confirmed or denied the authenticity of any of the documents
released by Guccifer 2.0. See Reno Berkeley, “DNC Tight-Lipped
About Authenticity Of Documents From Guccifer 2.0 Hack,”
Inquisitr
(June
17,
2016),
available
at
http://www.inquisitr.com/3212344/dnc-tight-lipped-aboutauthenticity-of-documents-from-guccifer-2-0-hack/ (last visited
June 24, 2016).
11

“HRC” is short for Hillary Rodham Clinton.

App. 135
social media attacks; and (d) using the DNC to “insert
our messaging” into Republican-favorable press.
24.
By the date of the DNC Memo, the
Democratic presidential nomination field already
included, in addition to Clinton, Bernie Sanders, who
announced his candidacy on April 30, 2015.12 And at
the time, there was also widespread speculation that
others would soon enter the primary race including Joe
Biden, Lincoln Chafee, Martin O’Malley, Elizabeth
Warren, and Jim Webb.13
25.
Despite there being every indication that the
2016 Democratic primary would be contested by
multiple candidates, including Sanders, the DNC
Memo makes no mention of any Democratic candidate
except Clinton, and builds the DNC’s election strategy
on the assumption that Clinton will be the nominee,
with no doubts attached. Rather than reflecting an
“impartial” or “evenhanded” approach to the
nominating process, as required by the Charter, the
DNC Memo strongly indicates that the DNC’s entire
approach to the process was guided by the singular
goal of elevating Clinton to the general election contest.
12

See Dan Merica, “Bernie Sanders is running for president,” CNN
Politics
(Apr.
30,
2015),
available
at
http://www.cnn.com/2015/04/29/politics/bernie-sanders-announcespresidential-run/ (last visited June 23, 2016).

13

See Newsday.com with the Associated Press, “2016 presidential
race: Possible Democratic candidates,” Newsday (Apr. 29, 2015),
available at http://www.newsday.com/news/nation/democrats-whomay-run-for-president-in-2016-from-clinton-to-biden-1.9988978
(last visited June 23, 2016). Of these, only Joe Biden and
Elizabeth Warren ultimately decided not to run.

App. 136
26.
On June 18 and 21, 2016, Guccifer 2.0
released additional files purportedly taken from the
DNC’s servers. Among these documents are even more
items that appear to be of a highly sensitive nature
including: (a) multiple spreadsheets of donors to the
DNC and other organizations, including the Clinton
Foundation, containing personal information such as
names, email addresses, and phone numbers; (b) a
“private and confidential” memorandum to Secretary of
Defense Ashton Carter from a senior advisor regarding
appointments to the Joint Chiefs of Staff; (c) fee, travel,
and lodging requirements for Clinton’s paid speeches;
(d) Clinton’s tax returns; and (e) thousands of pages of
research, apparently prepared by DNC staff as well as
Clinton’s campaign staff, relating to Clinton’s
candidacy including her “vulnerabilities,” potential
attacks, rebuttals, policy positions, and opposition
research on the other Democratic candidates.14

14

See “DNC Researched Clinton Speeches, Travel Records,” The
Smoking Gun (June 21, 2016), available at
http://www.thesmokinggun.com/documents/crime/dnc-researchedclinton-speeches-travel-records-621985 (last visited June 24, 2016);
Salam Marcos, “Guccifer 2.0: ‘Neutral’ DNC Staff Conducted
Research for Clinton,” Progressive Army, (June 21, 2016)
available at http://progressivearmy.com/2016/06/21/guccifer-2-0dnc-conducted-research-clinton/ (last visited June 24, 2016);
Stephen K. Bannon & Alexander Marlow, “Secret Memo: 42-Page
Leaked DNC Document Reveals Clinton Foundation Scandal
‘Vulnerabilities’ For Hillary Clinton,” Breitbart (June 21, 2016),
available at http://www.breitbart.com/2016-presidentialrace/2016/06/21/secret-memo-42-page-leaked-dnc-documentreveals-clinton-foundation-scandal-vulnerabilities-hillary-clinton/
(June 24, 2016).

App. 137
27.
These additional files entail further,
substantial evidence that the DNC was anything but
“impartial,” “evenhanded,” or “neutral” with respect to
the Democratic nominating process. To the contrary,
and in spite of the governing Charter and its multiple
public statements, the DNC devoted its resources to
propelling Clinton’s candidacy ahead of all of her rivals,
even if this meant working directly against the
interests of Democratic Party members, including
Bernie Sanders’ supporters.
28.
All
conditions
precedent
to
the
commencement and prosecution to final judgment of
this civil action have taken place, have been performed,
or have been waived or excused by Defendants.
29.
Plaintiffs have been compelled to engage the
services of the undersigned attorneys and to pay them
a reasonable fee.
CLASS ACTION ALLEGATION
30.
Plaintiffs bring this lawsuit on behalf of
themselves and the proposed class members under
Rules 23(b)(1), (b)(2), and (b)(3) of the Federal Rules of
Civil Procedure, as noted below.
31.
There are three proposed classes (hereinafter
collectively referred to as the “Classes”):
a) All people or entities who have contributed to
the DNC from January 1, 2015 through the date
of this action (“DNC Donor Class”);
b) All people or entities who have contributed to
the Bernie Sanders campaign from January 1,

App. 138
2015 through the date of this action (“Sanders
Donor Class”); and
c) All registered members of the Democratic Party
(“Democratic Party Class”).15
32.
Plaintiffs, Davis and Berners-Lee bring this
action on behalf of themselves and the DNC Donor
Class. Hereinafter, they will be referred to collectively
as the “DNC Donor Class Plaintiffs.”
33.
Plaintiffs, Wilding and Genna bring this
action on behalf of themselves and the Sanders Donor
Class. Hereinafter, they will be referred to collectively
as the “Sanders Donor Class Plaintiffs.”
34.
Plaintiffs, Cauchi and Thomas bring this
action on behalf of themselves and the Democratic
Party Class. Hereinafter, they will be referred to
collectively as the “Democratic Party Class Plaintiffs.”
35.
Numerosity. The members of each of the
Classes are so numerous that their individual joinder
is impracticable.
36.
Existence and Predominance of Common
Questions of Law and Fact. Common questions of
law and fact exist as to all members of the Classes and
15

Specifically excluded from the class definitions are Defendants;
the officers, directors, or employees of Defendants; any entity in
which Defendants have a controlling interest; and any affiliate,
legal representative, heir, or assign of Defendants. Also excluded
are any federal, state, or local governmental entities, any judicial
officer presiding over this action and the members of his/her
immediate family and judicial staff, and any juror assigned to this
action.

App. 139
predominate over any questions affecting only
individual members of the Classes.
37.
Typicality. Plaintiffs’ claims are typical of
the claims of the members of the Classes they seek to
represent, and Plaintiffs have the same claims as those
of the other class members they seek to represent.
38.
Adequacy of Representation. Plaintiffs
will fairly and adequately protect the interests of the
members of their respective Classes. Plaintiffs have
retained counsel highly experienced in class action
litigation, and Plaintiffs intend to prosecute this action
vigorously. Plaintiffs have no adverse or antagonistic
interests to those of the Classes.
39.
The prosecution of separate actions by
individual members of the Classes would create a risk
of inconsistent or varying adjudications with respect to
individual members of the Classes which would
establish incompatible standards of conduct for the
parties opposing the Classes.
40.
Defendants acted on grounds generally
applicable to the Classes with respect to the matters
complained of herein, thereby making appropriate the
relief sought herein with respect to each of the Classes
as a whole.

App. 140
CAUSES OF ACTION
COUNT I
(Fraud)
(DNC Donor Class & Sanders Donor Class)
41.
The DNC Donor Class Plaintiffs and the
Sanders Donor Class Plaintiffs re-allege paragraphs 1
through 40 above as if fully set forth herein.
42.
Defendants knowingly made false statements
and omissions concerning material facts.
43.
Defendants intended that the false
statements and omissions would induce the DNC
Donor Class Plaintiffs, the Sanders Donor Class
Plaintiffs, and members of the DNC Donor Class and
the Sanders Donor Class, to rely on them.
44.
The DNC Donor Class Plaintiffs, the Sanders
Donor Class Plaintiffs, and members of the DNC Donor
Class and the Sanders Donor Class, relied on
Defendants’ false statements and omissions to their
injury.
45.
Defendants’ conduct was intentional, willful,
wanton, and malicious.
Defendants had actual
knowledge of the wrongfulness of the conduct and the
high probability that injury to the DNC Donor Class
Plaintiffs, the Sanders Donor Class Plaintiffs, and
members of the DNC Donor Class and the Sanders
Donor Class would result and, despite that knowledge,
intentionally pursued that course of conduct, resulting
in injury.

App. 141
46.
Defendants’ conduct was so reckless or
wanting in care that it constituted a conscious
disregard or indifference to the rights of the DNC
Donor Class Plaintiffs, the Sanders Donor Class
Plaintiffs, and members of the DNC Donor Class and
the Sanders Donor Class.
COUNT II
(Negligent Misrepresentation)
(DNC Donor Class & Sanders Donor Class)
47.
The DNC Donor Class Plaintiffs and the
Sanders Donor Class Plaintiffs re-allege paragraphs 1
through 40 above as if fully set forth herein.
48.
Defendants made misrepresentations and
omissions concerning material facts.
49.
At the time of the misrepresentations and
omissions, Defendants either knew them to be false,
made them without knowledge of the truth or falsity,
or should have known them to be false.
50.
Defendants
intended
that
the
misrepresentations and omissions would induce the
DNC Donor Class Plaintiffs, the Sanders Donor Class
Plaintiffs, and members of the DNC Donor Class and
the Sanders Donor Class, to rely on them.
51.
The DNC Donor Class Plaintiffs, the Sanders
Donor Class Plaintiffs, and members of the DNC Donor
Class and the Sanders Donor Class, justifiably relied
on Defendants’ misrepresentations and omissions to
their injury.

App. 142
52.
Defendants’ conduct was intentional, willful,
wanton, and malicious.
Defendants had actual
knowledge of the wrongfulness of the conduct and the
high probability that injury to the DNC Donor Class
Plaintiffs, the Sanders Donor Class Plaintiffs, and
members of the DNC Donor Class and the Sanders
Donor Class would result and, despite that knowledge,
intentionally pursued that course of conduct, resulting
in injury.
53.
Defendants’ conduct was so reckless or
wanting in care that it constituted a conscious
disregard or indifference to the rights of The DNC
Donor Class Plaintiffs, the Sanders Donor Class
Plaintiffs, and members of the DNC Donor Class and
the Sanders Donor Class and members of the DNC
Donor Class and Sanders Donor Class.
COUNT III
(Violation of § 28-3904 of the D.C. Code)
(DNC Donor Class & Sanders Donor Class)
54.
The DNC Donor Class Plaintiffs, the Sanders
Donor Class Plaintiffs, and members of the DNC Donor
Class and the Sanders Donor Class re-allege
paragraphs 1 through 40 above as if fully set forth
herein.
55.
For purposes of the allegations in this
complaint, the DNC Donor Class Plaintiffs, the
Sanders Donor Class Plaintiffs, and members of the
DNC Donor Class and the Sanders Donor Class, are
“consumers” pursuant to subsection 28-3901(a)(2) of
the District of Columbia Code.

App. 143
56.
For purposes of the allegations in this
complaint, Defendants are “persons” pursuant to
subsection 28-3901(a)(1) of the District of Columbia
Code.
57.
Defendants misrepresented as to material
facts that had a tendency to mislead the DNC Donor
Class Plaintiffs, the Sanders Donor Class Plaintiffs,
and members of the DNC Donor Class and the Sanders
Donor Class.
58.
Defendants failed to state material facts, and
such failure tended to mislead the DNC Donor Class
Plaintiffs, the Sanders Donor Class Plaintiffs, and
members of the DNC Donor Class and the Sanders
Donor Class.
59.
As such, Defendants violated subsections 283904(e) and 28-3904(f) of the District of Columbia Code.
60.
Defendants’ conduct was intentional, willful,
wanton, and malicious.
Defendants had actual
knowledge of the wrongfulness of the conduct and the
high probability that injury to the DNC Donor Class
Plaintiffs, the Sanders Donor Class Plaintiffs, and
members of the DNC Donor Class and the Sanders
Donor Class would result and, despite that knowledge,
intentionally pursued that course of conduct, resulting
in injury.
61.
Defendants’ conduct was so reckless or
wanting in care that it constituted a conscious
disregard or indifference to the rights of The DNC
Donor Class Plaintiffs, the Sanders Donor Class
Plaintiffs, and members of the DNC Donor Class and
the Sanders Donor Class.

App. 144
COUNT IV
(Unjust Enrichment)
(DNC Donor Class)
62.
The DNC Donor Class Plaintiffs re-allege
paragraphs 1 through 40 above as if fully set forth
herein.
63.
The DNC Donor Class Plaintiffs and
members of the DNC Donor Class conferred benefits on
the Defendants, who had knowledge thereof.
64.
Defendants voluntarily accepted and retained
the benefits conferred.
65.
The circumstances are such that it would be
inequitable for the Defendants to retain the benefits
without paying the value thereof to the DNC Donor
Class Plaintiffs and members of the DNC Donor Class.
66.
Defendants’ conduct was intentional, willful,
wanton, and malicious.
Defendants had actual
knowledge of the wrongfulness of the conduct and the
high probability that injury to the DNC Donor Class
Plaintiffs and members of the DNC Donor Class would
result and, despite that knowledge, intentionally
pursued that course of conduct, resulting in injury.
67.
Defendants’ conduct was so reckless or
wanting in care that it constituted a conscious
disregard or indifference to the rights of the DNC
Donor Class Plaintiffs and members of the DNC Donor
Class.

App. 145
COUNT V
(Breach of Fiduciary Duty)
(Democratic Party Class)
68.
The Democratic Party Class Plaintiffs reallege paragraphs 1 through 40 above as if fully set
forth herein.
69.
Defendants had a fiduciary duty to the
Democratic Party Class Plaintiffs and members of the
Democratic Party Class.
70.
Defendants breached their fiduciary duty to
the Democratic Party Class Plaintiffs and members of
the Democratic Party Class.
71.
The Democratic Party Class Plaintiffs and
members of the Democratic Party Class have been
proximately damaged by Defendants’ breach.
72.
Defendants’ conduct was intentional, willful,
wanton, and malicious.
Defendants had actual
knowledge of the wrongfulness of the conduct and the
high probability that injury to the Democratic Party
Class Plaintiffs and members of the Democratic Party
Class would result and, despite that knowledge,
intentionally pursued that course of conduct, resulting
in injury.
73.
Defendants’ conduct was so reckless or
wanting in care that it constituted a conscious
disregard or indifference to the rights of the
Democratic Party Class Plaintiffs and members of the
Democratic Party Class.

App. 146
PRAYER FOR RELIEF
WHEREFORE, Plaintiffs pray for a judgment:
74.
For declaratory and injunctive relief
declaring illegal and enjoining, preliminarily and
permanently, Defendants’ violation of and failure to
follow the Charter and Bylaws of the Democratic Party;
75.
Certification of this action as a class action,
designation of Plaintiffs as class representatives and
undersigned counsel as class counsel;
76.
For compensatory, general, restitutionary,
restorative, statutory, treble, and special damages for
Plaintiffs against Defendants;
77.
Exemplary/punitive damages as against
Defendants in an amount sufficient to deter and to
make an example of Defendants;
78.

Attorneys’ fees and costs;

79.

Prejudgment and post-judgment interest; and

80.
The cost of this suit and such other relief as
the court finds just and proper.
JURY DEMAND
81.
triable.

Plaintiffs demand a jury trial on all issues so

~signature page follows~

App. 147
DATED: March 26, 2020
RESPECTFULLY SUBMITTED,
/s/ Jared H. Beck
By: Jared H. Beck
BECK & LEE TRIAL LAWYERS
JARED H. BECK
ELIZABETH LEE BECK
VICTOR ARCA
Corporate Park at Kendall
12485 SW 137th Ave., Suite 205
Miami, Florida 33186
Telephone: (305) 234-2060
Facsimile: (786) 664-3334
jared@beckandlee.com
elizabeth@beckandlee.com
victor@beckandlee.com
CULLIN O’BRIEN LAW, P.A.
CULLIN O’BRIEN
6541 NE 21st Way
Fort Lauderdale, Florida 33308
Telephone: (561) 676-6370
Facsimile: (561) 320-0285
cullin@cullinobrienlaw.com
ANTONINO G. HERNANDEZ P.A.
ANTONINO G. HERNANDEZ
4 SE 1st Street, 2nd Floor
Miami, Florida 33131
Telephone: (305) 282 3698

App. 148
Facsimile: (786) 513 7748
Hern8491@bellsouth.net
Counsel for Plaintiffs
Proposed Classes

and

the

App. 149
Exhibit 1
[CONFIDENTIAL watermark in original]
To:
The Democratic National Committee
Re:
2016 GOP presidential candidates
Date: May 26, 2015
Below, please find a suggested strategy for positioning
and public messaging around the 2016 Republican
presidential field. Ultimately, we need to
Our Goals& Strategy
Our goals in the coming months will be to frame the
Republican field and the eventual nominee early and to
provide a contrast between the GOP field and HRC.
Over the long-term, these efforts will be aimed at
getting us the best match-up in the general election,
and weakening the eventual nominee through the
course of the primary. We have outlined three
strategies to obtain our goal:
1) Highlight when GOP candidates are outside of
the mainstream on key issues, ideally driving
the rest of the field to follow with positions that
will hurt them in a general election;
2) Damage Republican presidential candidates’
credibility with voters by looking for targeted
opportunities to undermine their specific
messaging;

App. 150
3) Use specific hits to muddy the waters around
ethics, transparency and campaign finance
attacks on HRC
Operationalizing the Strategy
Highlighting Extreme or Unpopular Positions
There are two ways to approach the strategies
mentioned above. The first is to use the field as a whole
to inflict damage on itself similar to what happened to
Mitt Romney in 2012. The variety and volume of
candidates is a positive here, and many of the lesser
known can serve as a cudgel to move the more
established candidates further to the right. In this
scenario, we don’t want to marginalize the more
extreme candidates, but make them more “Pied Piper”
candidates who actually represent the mainstream of
the Republican Party. In these issues, we would elevate
statements and policies from any candidate—including
second and third-tier candidates—on issues that will
make them seem too far to the right on social issues
and too far from the priorities of everyday Americans
on economic issues.
Undermining Their Message& Credibility, Based on
our General Election Priorities
In addition to pinning down the field on key issues, we
will work to undermine the Republican candidate’s
specific messaging, while keeping in mind which
candidates and which messages we believe are most
powerful. These messages and the responses to them
will change given new campaign positioning and new
learnings from polling and research, but on these
issues, we will keep the focus on the most likely

App. 151
candidates to allow some possibility for growth with
the weaker candidates.
• Jeb Bush
o What to undermine: the notion he is a
“moderate” or concerned about regular
Americans; perceived inroads with the Latino
population.
• Marco Rubio
o What to undermine: the idea he has “fresh”
ideas; his perceived appeal to Latinos and
younger voters
• Scott Walker
o What to undermine: his Wisconsin record,
particularly on jobs; the idea he can rally
working- and middle class Americans.
• Rand Paul
o What to undermine: the idea he is a
“different” kind of Republican; his stance on
the military and his appeal to millennials
and communities of color.
• Chris Christie
o What to undermine: his success as governor,
his hypocrisy in telling it like it is vs. his
ethical issues and acts of a typical politician.
Muddying the Waters
As we all know, the right wing attack machine has
been building its opposition research on Hillary Clinton
for decades. HRC’s critics have been telegraphing they

App. 152
are ready to attack and do so with reckless abandon.
While reporters have much less of an appetite for ethics
stories about GOP candidates, we will utilize the
research to place highly targeted hits—for example,
GOP candidates taking positions supported by their
major super PAC donors.
Tactics
Working with the DNC and allied groups, we will use
several different methods to land these attacks,
including:
• Reporter Outreach: Working through the
DNC and others, we should use background
briefings, prep with reporters for interviews
with GOP candidates, off-the-record
conversations and oppo pitches to help pitch
stories with no fingerprints and utilize reporters
to drive a message.
• Releases and Social Media: Where
appropriate these attacks can be leveraged for
more public release, particularly the attacks
around specific issues where a public release can
point out that Republicans are outside of the
mainstream.
• Bracketing Events: Both the DNC and outside
groups are looking to do events and press
surrounding Republican events to insert our
messaging into their press and to force them to
answer questions around key issues.
We look forward to discussing this strategy further.
Our goal is to use this conversation to answer the
questions who do we want to run against and how best

App. 153
to leverage other candidates to maneuver them into the
right place.

